A job well done...
                                 Celebrating Success
The OIG proudly recognizes the accomplishments of its Y2K audit
team. The team’s cooperative efforts with the Corporation over a
3-year period to address the technological challenges posed by the
century date change helped ensure a successful transition to the
millennium. Congratulations to the following individuals:




Front row left to right: Mike Silagyi, Monte Galvin, Denise Douglas,
Leo Gallagher. Back row left to right: Scott Miller, Julie King, Jim
Sommers, Peter Sheridan.
Federal Deposit Insurance Corporation
Office of Inspector General
Semiannual
Report
to the Congress
Including the
OIG‘s 1999
Performance Report
October 1, 1999 - March 31, 2000
Inspector General’s Statement

The Corporation’s efforts to address       selves in trouble with little warning.    lending practices often occur in poor
the century date change over the           In her recent State of the Corporation    neighborhoods and frequently target
past 3 years helped maintain the sta-      speech, the Chairman of the FDIC          elderly or minority homeowners. The
bility of and public confidence in the     announced her three most recent           Corporation will be developing guid-
nation’s financial system. The Office      corporate priorities, one of which was    ance to ensure banks do not unwit-
of Inspector General (OIG) was             deposit insurance reform. She             tingly support predatory practices.
pleased to have played a part in help-     stressed the need for the Corporation
                                                                                     Underlying and at the same time
ing to ensure a successful transition      to reexamine its current “one size fits
                                                                                     forming a backdrop for all of these
to the millennium, and we congratu-        all” approach to insurance premiums
                                                                                     challenges is the amazing information
late the FDIC on its success. We are       in light of the increased risks that
                                                                                     technology revolution. The institu-
especially proud of the OIG staff who      some of these very large institutions
                                                                                     tions supervised by the FDIC rely on
participated on the Y2K team.              pose.
                                                                                     and use thousands of technically
Since January 1, the FDIC has had lit-     Although there have been relatively       complex systems as they conduct
tle time to rest. Challenges that may      few bank failures over the past sev-      their business activities. The FDIC
have been slightly eclipsed by Y2K                                                   itself has embraced technology as an
are now in the forefront and coming                                                  invaluable and powerful tool for con-
at the Corporation head-on. Consider           “Washington DC —                      ducting its work. Along with the
some of the significant changes              On the first day of the                 advantages of such a tool come risks
occurring around us.                              Year 2000, the                     and threats both to the safety and
                                                                                     soundness of institutions supervised
On November 12, 1999, the Gramm-                 nation’s banks,                     and to the security of the
Leach-Bliley Act was enacted. This              thrifts, and credit                  Corporation‘s own information and
legislation has created the most
                                              unions are conduct-                    systems. News stories have featured
sweeping changes in banking law
                                                                                     incidents of hackers intruding and dis-
since the 1930s. It allows affiliations          ing business as
                                                                                     rupting the business operations of
between insured banks and financial           usual…No significant                   both major corporations and federal
companies, including securities and
                                              disruptions resulting                  agencies. Tough issues relating to
insurance firms, in new types of enti-
                                             from the century date                   protecting individual privacy in an
ties known as “financial holding com-
                                                                                     electronic age arise as well. The
panies.” The Act also allows national          change have been                      Corporation needs to safeguard its
banks to form financial subsidiaries
                                                    detected.”                       systems and protect consumer rights
that could engage in financial activi-
                                                                                     in the industry it supervises and also
ties that, in general, do not include
                                               FDIC Press Release                    guard the privacy of the Corporation‘s
insurance or real estate develop-
                                                                                     own employees.
ment/investment. It also requires               January 1, 2000
financial institutions to establish pri-                                             Another very drastic change has been
vacy policies to protect the confiden-                                               occurring in the FDIC workforce over
tiality of customer information. We                                                  the past 8 years. As previous semian-
will all soon experience some of the                                                 nual reports have highlighted, down-
impacts of these changes.                                                            sizing, retirements, and other attrition
                                                                                     have reduced the size of the FDIC‘s
Many of us can vividly recall our first    eral years, the Chairman noted that
                                                                                     workforce dramatically--from a high of
experiences banking in small home-         one-half of the banks that have
                                                                                     about 15,600 employees in mid-1992,
town banks. But more recently, as          failed since April 1998--that is, 6 of
                                                                                     the Corporation currently operates
institutions have been consolidating,      12 institutions--were involved in sub-
                                                                                     with less than half that number of
huge conglomerates, often called           prime lending activities. The loss
                                                                                     staff: 7,177. By the end of 2000, the
“megabanks,” have been created.            associated with a failure involving
                                                                                     Corporation predicts a workforce of
With passage of the Gramm-Leach-           subprime lending is generally five
                                                                                     6,549. Given the new challenges in
Bliley Act, these megabanks and the        times greater than that of other fail-
                                                                                     the industry environment and those
services they provide will likely          ures. And thus, a second priority
                                                                                     associated with the new technology,
become increasingly complex. Along         issue for the FDIC is to look at such
                                                                                     the Corporation needs to address a
with them come new risks and chal-         lending practices and the risks they
                                                                                     number of “human capital” issues.
lenges for the FDIC. Recent fluctua-       pose to the insurance funds.
                                                                                     Its employees are its greatest asset;
tions in the stock market remind us
                                           Always alert to protecting con-           the Corporation will need to ensure
how volatile the economy can be and
                                           sumers, a third priority issue for the    that it has a sufficient number of staff
that large institutions can find them-
                                           Chairman is predatory lending. Such       and align and prepare its workforce to




                                                            2
successfully address the challenges      Office, the private sector, and the        On a positive note, the Corporation
discussed above and new ones that        OIG community.                             has welcomed several new senior
it may not even anticipate at this                                                  managers over the past months. The
                                         As a result of all of these initiatives,
moment.                                                                             Chairman has appointed a Chief of
                                         we too are changing. We realize that
                                                                                    Staff and named permanent Directors
In addressing such challenges, the       to be successful and stay relevant,
                                                                                    for two important units--the Division
Corporation needs to be innovative       we cannot be satisfied with the sta-
                                                                                    of Resolutions and Receiverships and
and flexible in its approaches and       tus quo, but rather must strive
                                                                                    the Office of the Ombudsman.
remain open to new ways of operat-       always to do things better. And we
ing and managing resources, particu-     realize we must develop and prepare        With respect to leadership, I would
larly its human resources. This is       every one of our staff to meet the         also like to acknowledge the recent
especially true in a nation with a       challenges involved in accomplishing       retirement of my Principal Deputy,
healthy economy and stiff competi-       our own mission that is inextricably       James R. Renick, during the reporting
tion for qualified personnel with        linked to the Corporation‘s. We have       period. Jim retired after more than
needed expertise. From our vantage       worked hard to strengthen partner-         23 years of federal service, and his
point, the Corporation is thoughtfully   ships with the Corporation and are         colleagues and I greatly appreciate
identifying those areas where it         committed to being accountable for         the role he played at the FDIC OIG.
needs to focus, planning its             producing results.                         We wish him well in every future
approach, and acting aggressively to                                                endeavor.
                                         In that regard, this reporting period
address the challenges. It has already   and for the first time we are including    In closing, I am reminded of a quota-
conducted or planned a number of         as an integral part of this semiannual     tion to the effect that we are living at
public forums that are bringing          report the results of our 1999             a time in history where change is so
together industry experts, govern-       Performance Report (see pages 40-          quick that we begin to see the pre-
ment policy makers, consumer advo-       55). It is our hope that in conjunction    sent only when it is already disap-
cates, and congressional staff to dis-   with the semiannual report, which          pearing. We can‘t let that happen.
cuss solutions to problems and chal-     presents our results for a given 6-        We‘re excited about the current chal-
lenges--much like it did when it         month period, readers can also exam-       lenges we face. We want to address
addressed the Y2K challenge.             ine our performance against goals we       them, keep pace, and be fully ready
Through many of its diversity-related    have set for ourselves over a longer       for the next ones. We look forward to
initiatives, it is also placing great    time frame. Reporting our results in       working in partnership with corporate
emphasis on developing its human         the spirit of the Government               management on how best to handle
resources, providing professional        Performance and Results Act is an          such daunting changes and chal-
development opportunities, and try-      evolutionary process. We continue          lenges. And that‘s a very compelling
ing to ensure that its workforce is      working to refine our performance          reason for all of us to come to work
fully prepared to deal with new          goals and establish more meaningful        each day and serve the American
issues and challenges.                   measures of success--both quantita-        people.
What is the OIG‘s role amidst such       tive and qualitative.
                                                                                    We appreciate the support of the
circumstances? I believe an indepen-     In my last two semiannual report           Corporation and the Congress over
dent OIG has valuable perspectives       statements, I talked about the need        the past 6 months and are commit-
to add as the Corporation deals with     for strong, sustained leadership at the    ted to continuing to pursue the
these issues, and we will be working     FDIC. In particular, I had been con-       Inspector General mission with great
with corporate management in             cerned that the position of Director       enthusiasm and pride.
addressing the Chairman‘s priorities.    on the FDIC Board has been left
To make sure we can add the most         vacant since September 1998. The
possible value to the Corporation, we    President has nominated an individual
have looked at ourselves in the mirror   and is awaiting congressional confir-
in a number of ways. For instance,       mation of the appointment.
we have conducted two client sur-        Confirmation hearings are scheduled        Gaston L. Gianni, Jr.
veys over the past 2 years. Through      before the Senate Committee on
our Learning Organization initiative                                                Inspector General
                                         Banking, Housing, and Urban Affairs
we have taken a very critical look at    on May 11, 2000. In light of the many      April 30, 2000
our processes, products, and working     pressing issues currently facing the
relationships. We are preparing a        Corporation, I reiterate my hope that
workforce plan to guide us into the      the position will soon be filled so that
future. We have studied best prac-       the Board can operate at full strength.
tices from the General Accounting




                                                          3
4
Table of Contents

        Inspector General’s Statement                                         2

        Overview                                                              6

        Highlights                                                            8

        Major Issues                                                         10

        Investigations                                                       26

        OIG Organization                                                     32

        OIG's 1999 Performance Report                                        40

        Reporting Terms and Requirements                                     56

        Appendix I:    Statistical Information Required by the
                       Inspector General Act of 1978, as amended             58

        Appendix II: Reports Issued by the Office of Congressional
                     Relations and Evaluations                               66



        Tables

        Table 1:     Significant OIG Achievements                            37

        Table 2:     Nonmonetary Recommendations                             37

        Table 3:     OIG Review of Proposed or Existing Legislation
                     and Regulations                                         38



        Figures

        Figure 1:    Products Issued and Investigations Closed               38

        Figure 2:    Questioned Costs/Funds Put to Better Use                39

        Figure 3:    Fines, Restitution, and Monetary Recoveries Resulting
                     from OIG Investigations                                 39

        Abbreviations                                                        67




                                              5
Overview

                                    Major Issues

                                    The Major Issues section of our
                                    report focuses on key challenges the
                                    FDIC faces as it works to accomplish
                                    its mission. Having successfully ush-
                                    ered in Y2K, the Corporation must
                                    continue to address other risks to the
                                    insurance funds in a banking industry
                                    environment of changing and
                                    expanding services. At the same
                                    time, the Corporation must continue
                                    to effectively supervise the financial
                                    institutions it regulates and protect
                                    consumers’ rights. With respect to
                                    managing and liquidating assets, the
Major Issues                        Corporation must always seek to
                                    maximize recoveries; it needs to be
Investigations                      particularly vigilant regarding pro-
                                    grams where large sums of money
OIG Organization                    are at stake and where the FDIC
                                    does not control the entire manage-
OIG’s 1999 Performance Report       ment and disposition process. The
                                    Corporation must also continue its
Appendixes                          efforts to pursue court-ordered resti-
                                    tution and other debts that it is
                                    owed. In conducting its information
                                    technology (IT) activities, the
                                    Corporation must give priority to
                                    strategically planning for its IT
                                    resources to maximize its effective-
                                    ness. It also needs to follow sound
                                    system development life cycle proce-
                                    dures and ensure adequate system
                                    security. Strong controls and effec-
                                    tive oversight of the FDIC’s contract-
                                    ing activities are also essential to the
                                    Corporation’s success. Contracting
                                    for much needed IT services must
                                    be done in the most cost-effective
                                    manner.

                                    Major downsizing over the past 5
                                    years and natural attrition have
                                    greatly impacted the FDIC work-
                                    place. The loss of human resources
                                    has resulted in corresponding losses
                                    of leadership and, in some cases,
                                    expertise and historical knowledge.
                                    The Corporation’s diversity efforts are
                                    intended to help restore some of that
                                    lost talent and skill. The FDIC must
                                    build on ongoing initiatives and




                                6
develop a comprehensive, integrated     with FDIC management, U.S.                 OIG’s 1999 Performance
approach to human capital issues.       Attorneys’ Offices, the Federal            Report
Finally, under the provisions of the    Bureau of Investigation, and a num-
Government Performance and              ber of other law enforcement agen-         We are pleased to include in this
Results Act, for all of these major     cies (see pages 26 - 31).                  document our 1999 Performance
issues, the Corporation must estab-                                                Report as a separate but integral
lish goals, measure performance,        OIG Organization                           component of our Semiannual
and report on accomplishments.                                                     Report to the Congress. Our perfor-
                                        The OIG Organization section of our        mance report summarizes our
Our Major Issues section also dis-      report highlights several key internal     progress against our annual plan,
cusses the OIG’s ongoing and            initiatives from the reporting period.     which contained 38 specific goals
planned work to help the                These include developing a long-           captured under the following three
Corporation achieve success in          term audit strategy, pursuing our vari-    areas: Audits, Evaluations, and
confronting these major issues and      ous office components’ action plans,       Investigations Add Value;
their associated challenges. We         and re-surveying our corporate cus-        Professional Advice Assists the
discuss areas where we identified       tomers. Recognizing that OIG               Corporation; and OIG Communicates
opportunities for cost savings and      employees are our greatest asset,          Effectively With Clients/Stakeholders.
recoveries or other improvements        we are also focusing increased atten-      Our performance report assesses
and the recommendations we              tion on our own human capital con-         those areas where we have made
made in those areas. Questioned         cerns. Additionally, the section           substantial progress, performed rea-
costs and funds put to better use       includes a discussion of some of the       sonably well, or need to substantially
for the period total $3.5 million.      key activities of the President’s          improve. In that our strategic plan-
We made 68 nonmonetary recom-           Council on Integrity and Efficiency on     ning efforts continue to evolve, it
mendations. Our work targets all        which the Inspector General serves         also addresses those areas where
aspects of corporate operations         as Vice Chair. This section also refer-    we need to focus attention for 2000
and includes a number of proactive      ences some of the assistance we            and beyond. It is our hope that by
approaches and cooperative efforts      have provided to management dur-           presenting this report along with our
with management to add value to         ing the reporting period, including        semiannual report, the Congress and
the FDIC (see pages 10 - 25).           assisting the Corporation during the       other readers will have a more com-
                                        Y2K rollover weekend, working fur-         plete picture of the FDIC OIG’s over-
Investigations                          ther to establish communications           all performance and accountability
                                        between the Division of Supervision        (see pages 40 - 55).
The operations and activities of the    and the OIG regarding open financial
OIG’s Office of Investigations are      institution criminal investigations, and   Appendixes
described beginning on page 26 of       making presentations at corporate
this report. As detailed in the         conferences and meetings. We pre-          We list the Inspector General Act
Investigations section, the Office of   sent a listing of laws and regulations     reporting requirements and define
Investigations is reporting fines,      reviewed during the past 6 months          some key terms in this section. The
restitution, and recoveries totaling    and also capture some of our other         appendixes also contain much of the
approximately $16 million. Cases        internal initiatives this reporting        statistical data required under the Act
leading to those results include        period, including the implementation       and other information related to our
investigations of conspiring to         of feedback mechanisms to measure          work this period (see pages 56 - 66).
obstruct a bank examination, bank       the success of audit and evaluation
fraud, and theft of public funds.       reviews and reports, creating an
Some of the investigations described    internal diversity Web site, and con-
reflect work we have undertaken in      tinuing our electronic workpaper pro-
partnership with other law enforce-     ject. In keeping with our goal of
ment agencies and with the coopera-     measuring and monitoring our
tion and assistance of the FDIC’s       progress, we visually depict signifi-
Division of Supervision and Division    cant results over the past five report-
of Resolutions and Receiverships. To    ing periods (see pages 32 - 39).
ensure continued success, the OIG
will continue to work collaboratively




                                                         7
Inspector’s
Highlights General Statement




      •   The Office of Audits and Office of Congressional Relations and
          Evaluations issue a total of 23 reports and 15 audit- or evaluation-
          related correspondence. The reports identify questioned costs of
          $1.34 million and funds put to better use of $2.18 million.
          Management disallows $577,512 of costs questioned.

      •   OIG reports include 68 nonmonetary recommendations to
          improve corporate operations. Among these are recommenda-
          tions to carry forward a number of Y2K-related initiatives to
          enhance the Corporation‘s overall information technology pro-
          gram, better identify and account for receivership assets, improve
          long-range information technology strategic planning and perfor-
          mance measurement, and enhance data integrity controls in cer-
          tain critical systems.

      •   OIG investigations result in 5 arrests; 9 convictions; 12 indict-
          ments/informations; and about $16 million in total fines, restitu-
          tion, and monetary recoveries.

      •   The OIG successfully coordinates Y2K work with the Division of
          Supervision, Division of Information Resources Management,
          Division of Resolutions and Receiverships (DRR), and Division of
          Insurance as Year 2000 arrives. OIG staff observe “rollover” week-
          end of December 31, 1999 - January 2, 2000. The OIG issues its
          Special Report on the FDIC's Year 2000 Efforts.

      •   The OIG‘s review of the FDIC‘s voice and video contract with MCI
          results in a contract modification wherein we estimate the FDIC
          will save $2.18 million over the remaining 21 months of the
          contract, a program savings of 47 percent.

      •   The OIG participates in a multi-agency investigation with special
          agents of the Federal Bureau of Investigation, Internal Revenue
          Service, U.S. Postal Inspection Service, and Department of the
          Treasury OIG. Efforts result in the indictment of two bank officials
          of the failed First National Bank of Keystone, Keystone, West
          Virginia, on charges of conspiracy to obstruct a bank examination.

      •   The OIG reviews 9 proposed or existing federal regulations and
          legislation and 12 proposed FDIC policies and responds to 18
          requests and appeals under the Freedom of Information Act and
          Privacy Act.




                                        8
•   The OIG continues efforts with DRR to pursue court-ordered
    restitution. Since October 1999, the OIG has opened 13 new
    cases that are being coordinated with DRR and involve a total of
    over $87 million in outstanding restitution orders or other types
    of debt. As of the end of the reporting period, 64 such investiga-
    tions were ongoing.

•   The OIG and U.S. General Accounting Office continue their joint
    effort to audit the Corporation‘s financial statements. The OIG
    plays an increasingly greater role and assumes audit responsibil-
    ity for major portions of the audit.

•   The OIG coordinates with and assists management on a number
    of projects, including participating on task groups such as the
    Chairman‘s Diversity Council and the Alternative Dispute
    Resolution Steering Committee; meeting to share information
    regarding our ongoing investigation of the failure of Keystone
    National Bank, Keystone, West Virginia; and presenting remarks
    at corporate conferences and meetings.

•   The OIG submits Fiscal Year 2001 Appropriation Request for
    $33.7 million to the House and Senate Subcommittees on VA,
    HUD, and Independent Agencies, Committee on Appropriations.

•   The OIG provides a written Statement for the Record in response
    to a request from the Committee on Banking and Financial
    Services, U.S. House of Representatives, for views on H.R. 3374.
    This proposed legislation would strengthen the FDIC‘s ability to
    monitor and assess risk in financial institutions for which the FDIC
    is not the primary federal regulator.

•   The OIG undertakes a number of internal office initiatives, includ-
    ing completing a second external customer survey; launching our
    Diversity Web site; issuing our 2000 Audit Plan, Annual
    Performance Plan, and Internal Resource Management
    Performance Plan for 2000; implementing a rotational assignment
    program; and furthering use of customer feedback mechanisms
    for audits and evaluations.




                                  9
Major IssuesGeneral Statement
Inspector’s

Under the Inspector General Act, the       Examination Council, developed a            many of the initiatives implemented
FDIC OIG is charged with promoting         similar methodology to ensure that          to address Y2K are carried forward
the economy, efficiency, and effec-        the financial institutions it supervises    and transferred to other aspects of
tiveness of FDIC programs and oper-        were prepared for the century date          corporate activities that impact
ations and protecting against fraud,       change.                                     several different FDIC divisions
waste, and abuse that can harm or          Overall, the FDIC expended over             and offices. Our final report
hinder the Corporation’s success. In       $105 million in personnel, hardware,        emphasized that view and offered
that regard, the OIG has identified a      software, and contracted costs              recommendations to that end.
number of major issues facing the          through January 31, 2000 to ensure          During our audit effort, we proactively
Corporation. The results of our work       the Y2K readiness of its internal sys-      provided management with sugges-
over the past 6 months are pre-            tems and operations and the financial       tions for process improvements. On
sented in the context of these             institutions that it supervises. Over a     the supervisory side, we provided sug-
issues. The major issues are closely       3-year period, the OIG devoted over         gestions for (1) ensuring the consis-
related to the Corporation’s mission:      2,200 staff days reviewing and provid-      tency of Y2K assessment ratings,
to contribute to the stability and pub-    ing feedback on the Corporation‘s           including issuing clarifying guidance
lic confidence in the nation’s financial   activities in an effort to ensure overall   and requiring examiners to fully
system by insuring deposits,               Y2K success. As a result of the             develop and document assessment
examining and supervising finan-           FDIC‘s commitment to this endeavor,         conclusions; (2) improving information
cial institutions, and managing            the financial institutions generally        contained in the Division of
receiverships. Our work over the           experienced business as usual during        Supervision’s (DOS) Y2K tracking sys-
past 6 months addresses these              and after the rollover, with only minor     tem; (3) communicating Y2K assess-
major issues and supports the corpo-       problems that were quickly corrected.       ment results in a timely manner;
rate mission.                              In addition, the public‘s confidence in     (4) following up with institutions to
Addressing Risks to the                    the banking system was maintained.          ensure that they had completed test-
Insurance Funds                            On the internal side, the FDIC‘s            ing; (5) ensuring that institutions had
                                           investments resulted in a successful        completed their contingency plans;
Y2K Success                                change to the year 2000 for the             and (6) implementing an independent
As Y2K loomed on the horizon, the          Corporation‘s IT resources and other        review process for the Y2K assess-
FDIC Chairman characterized the            benefits that will extend into future       ment reports and related work papers.
year 2000 date change as the FDIC‘s        operations. These benefits include
                                                                                       With respect to the Corporation‘s
“number one safety and soundness           accurate hardware, software, and
                                                                                       internal systems, we suggested
priority.” We are pleased to report        data exchange inventories and
                                                                                       (1) updating IT inventories to identify
that the FDIC successfully met the         enhanced IT policies and procedures
                                                                                       duplicative hardware and software,
Y2K challenge and did its part to pro-     that, if continued for all related
                                                                                       (2) improving the mission-critical
tect the American public from pre-         Division of Information Resources
                                                                                       application contingency planning
eminent risks to the banking opera-        Management operations, can improve
                                                                                       process, (3) expanding the process
tions and services posed by the cal-       the FDIC‘s overall IT program.
                                                                                       used to certify applications for Y2K
endar change to the year 2000.             The OIG‘s Y2K Efforts                       compliance, (4) implementing certain
Preparing for the year 2000 was a          Beginning in February 1997, the OIG         control procedures for all computer
major endeavor for the Corporation.        engaged in a comprehensive assess-          platforms, (5) developing a business
As we have reported in past semian-        ment of the FDIC‘s efforts to ensure        continuity and contingency plan,
nual reports, the Corporation‘s over-      Y2K readiness of both the financial         (6) finalizing and formalizing testing
all approach was to follow the five-       institutions that it supervises and its     policies and procedures, and (7) cor-
phase, structured approach and rigor-      internal systems. Subsequent to the         recting specific date-related issues
ous program management process             rollover weekend leading into 2000,         discovered during our independent
developed by the U.S. General              the OIG issued a special report sum-        verification validation testing.
Accounting Office and other recog-         marizing both the Corporation‘s Y2K
                                                                                       Following the successful transition to
nized information technology (IT)          actions and the OIG‘s work to help
                                                                                       2000, the Corporation summarized
experts. The phases covered the            ensure a successful transition to the
                                                                                       lessons learned, benefits derived,
awareness, assessment, renovation,         new millennium (Special Report on
                                                                                       and next steps or initiatives that
validation, and implementation of the      FDIC's Year 2000 Efforts, Audit
                                                                                       could be incorporated into the FDIC‘s
FDIC‘s Y2K program. The FDIC, in           Report No. 00 -12).
                                                                                       normal business processes in a doc-
partnership with the other members         The OIG believes that the                   ument entitled Y2K - A Retrospective
of the Federal Financial Institutions      Corporation would be well served if         Look dated January 21, 2000. This




                                                            10
document is an interdivisional look at     •   Enhancing DOS‘s quality assur-       As noted in our last semiannual
the FDIC's Y2K efforts and contains            ance review program through an       report, on September 1, 1999, the
our input from an audit perspective.           independent review of examina-       Office of the Comptroller of the
The issues identified by our office            tion reports and supporting          Currency closed the First National
and the Corporation that provide the           documentation to validate            Bank of Keystone, Keystone, West
greatest opportunity for continued             examination conclusions.             Virginia. Keystone was a $1.1 billion
improvements include the following:                                                 institution closed after evidence of
                                           The OIG received full agreement
                                                                                    apparent fraud was found that
•   Maintaining and periodically           from corporate officials on the
                                                                                    resulted in the depletion of the
    updating DOS‘s database of             recommendations we made to
                                                                                    bank‘s capital. The FDIC was named
    service providers, software            implement or sustain all of these
                                                                                    receiver and the resulting loss to the
    vendors, and affiliated banks to       practices.
                                                                                    insurance fund was estimated to be
    facilitate solutions in the event      Other Risks Require Vigilance            between $750 million and $850 mil-
    an institution experiences prob--      Notwithstanding the alleviation of the   lion as of December 31, 1999. Failure
    lems with a servicer or vendor-        Y2K threats, the Corporation must        of a megabank could take an even
    supplied product;                      remain alert to emerging risks and       higher toll on the insurance funds.
•   Stressing to supervised institutions   adapt to a rapidly changing financial
                                                                                    Banking activities related to cyber-
    the importance of maintaining          services marketplace. In terms of
                                                                                    banking, electronic cash, and other
    adequate business resumption and       size, complexity, and sensitivity to
                                                                                    highly technical financial delivery sys-
    contingency plans and monitoring       the global economy, banks have
                                                                                    tems also pose increasing risks to
    their maintenance of such plans;       undergone tremendous changes.
                                                                                    the safety and soundness of the
                                           The FDIC is working aggressively to
•   Ensuring that internal manuals                                                  banking industry and, consequently,
                                           keep pace with the increasing num-
    and procedures that provide opera-                                              the deposit insurance funds.
                                           ber of large institutions, the busi-
    tional guidance remain current;                                                 Additionally, personal bankruptcies,
                                           nesses they conduct, and the risks
•   Maintaining accurate and complete                                               syndicated lending, securitizations,
                                           they pose. In light of impending
    IT inventories for the FDIC‘s hard-                                             international investments, predatory
                                           risks, two questions arise: (1) How
    ware, software, and telecommuni-                                                lending, subprime lending, and credit
                                           would the Corporation deal with a
    cations resources;                                                              card lending are areas where
                                           “megabank” that is in trouble or
                                                                                    adverse trends could cause losses to
•   Maintaining up-to-date and com-        fails? and (2) What expanded bank
                                                                                    the FDIC and the banking industry.
    prehensive operating procedures        activities should be covered by the
                                                                                    The Corporation must guard against
    for FDIC buildings;                    FDIC‘s “safety net”?
                                                                                    these risks and continue to ensure
•   Maintaining a repository contain-      The issue of megabanks is signifi-       that consumers have fair and equal
    ing information on the FDIC‘s          cant. In recent years, major banks       access to financial services.
    external data exchange partners,       have been rapidly developing into        Protecting customers‘ privacy in a
    including points of contact, data      enormous and complex financial con-      rapidly growing information market-
    formats, and frequencies of            glomerates. The total value of bank      place is also an issue of concern.
    exchange;                              mergers in 1998 alone, $233 billion,     Consumer advocates, government
                                           exceeded the combined total from         policymakers, congressional staff,
•   Maintaining an up-to-date corpo-       the previous 6 years. The industry       bankers, and policy analysts
    rate-wide business continuity and      has undergone widespread consoli-        explored the issue of the privacy of
    contingency plan;                      dation, and, as of September 30,         consumer financial information in an
•   Maintaining and periodically vali-     1999, the 39 largest banking organi-     electronic age at an interagency pub-
    dating the accuracy and complete-      zations in the United States con-        lic forum hosted by the FDIC on
    ness of contingency plans for mis-     trolled assets totaling $4 trillion in   March 23, 2000.
    sion-critical application systems;     FDIC-insured institutions. The trend
                                                                                    The Chairman has identified both
                                           toward consolidation continues in
•   Adopting and updating the                                                       predatory lending and subprime
                                           dramatic fashion and will continue to
    expanded Y2K configuration                                                      lending as priority issues that the
                                           place increasing risks on the deposit
    management and version control                                                  FDIC will be addressing aggres-
                                           insurance funds. As of September
    program for all IT platforms;                                                   sively. Predatory lending practices
                                           30, 1999, there were 39 megabanks
                                                                                    frequently occur in poor neighbor-
•   Incorporating the testing policies     in the country--that is, 39 banks with
                                                                                    hoods and often target elderly or
    and procedures developed for Y2K       $25 billion or more in total assets.
                                                                                    minority homeowners. The
    into continuing FDIC policy; and                                                Corporation will be developing guid-




                                                           11
                                                          ance for its supervised institutions
                                                          and examiners to ensure that banks
                                                          do not unwittingly support predatory
                                                          lenders. Protecting consumers is a
                                                          key priority.
                                                          With respect to subprime lending, the
                                                          Chairman reported in her recent State
                                                          of the Corporation speech that one-
                                                          fifth of the banks on the FDIC‘s prob-
                                                          lem list are involved in subprime lend-
OIG Addresses Emerging Risk                               ing. One-half of the banks that have
                                                          failed since April 1998 -- that is, 6 of
Privacy has been and continues to be of significant       12 institutions -- engaged in such
concern to the public and the Congress. Privacy con-      lending. The loss associated with a
cerns are defined to impact the acquisition, use, and     failure involving subprime lending is
disclosure of personal information. Information pri-      generally five times greater than that
vacy recognizes that personal information can be          of other failures. As such, the
used improperly, unfairly, or for purposes other than     Corporation will continue to address
those intended by an individual. The Corporation          the risks of subprime lending by
must be sensitive to privacy issues on several levels:    focusing on loan loss reserves and by
as a government agency, in its capacity as a regulator    raising capital standards for some
of financial institutions, and as an employer. Given      subprime lenders whose capital is
the continued level of concern related to protecting      inadequate for the risks they pose.
privacy, the OIG initiated work in this area.
                                                          The Corporation must also ensure
                                                          that the premium system reflects
At the onset of our review, we recognized that privacy    what the risk-focused supervisory
was an issue that cut across all of the Corporation’s     process indicates. The Corporation
organizational boundaries. To focus our resources         has been working to identify institu-
and address the areas of highest concern and risk, we     tions that pose the greatest risks and
solicited the views of all FDIC Division and Office       is asking if a “one size fits all”
Directors and identified three areas for a series of      approach to insurance makes sense
reviews related to privacy:      (1) FDIC’s Web Site      given these risks. A key question is
Privacy Policy, (2) FDIC’s Efforts to Protect Its         determining whether the system
Employees’ Privacy, and (3) FDIC’s Efforts to Protect     unnecessarily allows some institu-
Consumers’ Right to Financial Privacy.                    tions to increase risks to the insur-
                                                          ance funds without paying additional
The content and visibility of privacy and security pol-   costs. Another issue to address is
icy statements for federal Web sites is an emerging       whether the insurance system
issue area. Given the heightened concerns about           should treat smaller institutions dif-
online privacy and, in particular, the disclosures made   ferently than it treats larger, more
about information collected from visitors to web          complex institutions.
sites, we decided to focus our first review on the        In addition to the above-discussed
FDIC’s policies and practices for handling such infor-    risk areas in the banking industry, on
mation. We expect to discuss the results of this          November 12, 1999, the Gramm-
review, as well as the remaining reviews, in future       Leach-Bliley Act was enacted. This
semiannual reports.                                       legislation allows, under certain cir-
                                                          cumstances, affiliations between and
                                                          among commercial banks, insurance
                                                          companies, securities firms, and
                                                          other financial services providers.
                                                          The legislation provides a framework
                                                          for significant restructuring within the
                                                          financial services industry, generally,
                                                          and will open many new business




                                            12
activities to the banking industry in      tions in its backup capacity, we          scope of the FDIC‘s backup examina-
particular. Such restructuring poses       focused on assessing the level of         tion, thus reducing the benefit of the
additional, significant challenges to      cooperation DOS has received from         secondary level of review. The OIG
bank regulators and could create           the other federal bank regulators--the    believes that requiring concurrence
new and very different risks to the        Office of the Comptroller of the          by the primary federal regulator may
deposit insurance funds.                   Currency (OCC), the Board of              impair the FDIC‘s independence,
                                           Governors of the Federal Reserve          limit the value of the secondary level
OIG Work to Address Risks
                                           System (FRB), and the Office of           of review, and could be viewed as an
The OIG has conducted and                  Thrift Supervision (OTS). Under the       organizational conflict of interest.
planned a number of reviews to             current delegation from the FDIC          Requiring approval by the FDIC‘s
address the risks faced by the             Board, FDIC examiners must obtain         Board of Directors on a case-by-case
Corporation in its role as regulator       the concurrence of the primary fed-       basis could delay the FDIC‘s exami-
of a dynamic industry. Our work            eral regulator or approval of the         nation in potentially critical situations
addresses such issues as back-up           Board before conducting banking           and the start of enforcement action
examination authority, megabanks,          examination activities.                   based on examination results.
Internet banking, and the risk-
focused examination process.               For the 42-month period ending            To ensure that the additional level of
                                           March 31, 1999, we identified             review intended by the special exam-
Backup Authority/Megabanks
                                           90 instances of backup examination        ination provision operates as pro-
As referenced in our last semiannual       activity. Overall, we found that DOS      vided by law and that the FDIC takes
report, the OIG conducted a review         regional managers believe that they       the most effective approach to moni-
focusing on the FDIC‘s efforts to          have good working relationships with      toring risks to the deposit insurance
monitor risk at insured institutions for   the other federal regulators, and that    funds, the OIG believes that the
which the FDIC is not the primary          when dealing with small- and              FDIC needs to be given expanded
federal regulator. Our review focused      medium-sized institutions, there          authority to conduct special examina-
on the “backup” examination                have been few substantive problems        tions. A delegation from the FDIC
process for insured thrifts, national      in sharing information and gaining        Board to the FDIC Chairman would
banks, and state member banks. We          access to banks. However, we              allow the FDIC to make an indepen-
also looked at DOS‘s efforts to moni-      learned of several instances during       dent decision to initiate special exam-
tor risks associated with the nation‘s     the period reviewed where DOS pro-        ination activities based on criteria of
largest and most complex financial         posed to join another federal bank        increased or unusual risk to the
institutions, often referred to as         regulator in a safety and soundness       funds and not require case-by-case
“megabanks,” as discussed above.           examination and was initially denied      concurrence by the primary federal
During the reporting period, we            permission. In all instances, the other   regulator or the Board‘s approval.
issued an audit memorandum to the          regulators eventually reversed their      Both of these current requirements
FDIC Chairman communicating the            initial positions, and DOS was able to    can delay the initiation of a process
results of our review. We also sub-        resolve the matters before taking         that needs to be expeditious.
mitted a statement for the record to       these cases to the Board. The most
                                                                                     Accordingly, in our audit memoran-
the House Committee on Banking             notable instance occurred when the
                                                                                     dum we suggested that the
and Financial Services in connection       OCC initially denied DOS permission
                                                                                     Chairman request delegated author-
with H.R. 3374--proposed legislation       to participate in the 1998 examina-
                                                                                     ity from the FDIC Board of Directors
designed to strengthen the FDIC‘s          tion of The First National Bank of
                                                                                     giving the Chairman authority to initi-
ability to monitor and assess risk in      Keystone, Keystone, West Virginia
                                                                                     ate special examinations of insured
those financial institutions for which     (Keystone), and then limited the
                                                                                     institutions without having to secure
the FDIC is not the primary federal        extent of FDIC involvement in that
                                                                                     the concurrence of the primary fed-
regulator. That statement reinforced       examination. As noted above,
                                                                                     eral regulator or the approval of the
the views we communicated first to         Keystone‘s failure in 1999 has
                                                                                     Board. Alternatively, we suggested
the Chairman.                              caused estimated losses to the Bank
                                                                                     that the Chairman seek a legislative
                                           Insurance Fund ranging from $750
The following discussion summarizes                                                  change to vest this authority in the
                                           million to $850 million.
the ideas we expressed in those                                                      Chairman.
communications.                            As demonstrated in the case of
                                                                                     At a hearing on Recent Bank Failures
                                           Keystone, the restrictions imposed
The FDIC Needs Expanded Special                                                      and Regulatory Initiatives held on
                                           by the current delegation can allow
Examination Authority                                                                February 8, 2000 by the House
                                           the primary federal regulator to sig-
In reviewing the FDIC‘s participation                                                Committee on Banking and Financial
                                           nificantly influence the timing and
in safety and soundness examina-                                                     Services, Chairman Tanoue stated




                                                             13
the following: “H.R. 3374 would            which examination findings and            In our audit memorandum, we sug-
give the Chairman of the FDIC,             supervisory concerns are discussed        gested that the Chairman have DOS
rather than the FDIC Board, the            and are thus prevented from gaining       work toward developing agreements
authority to authorize a special           valuable insights into an institution‘s   with the other bank regulatory agen-
examination of an insured institution      operations and risks. Although DOS        cies that would allow for the provi-
when such action is necessary to           has the information necessary to look     sion of a consistent, minimum level
determine the condition of the insti-      back and evaluate where a bank has        of information/access for all FDIC
tution for insurance purposes.”            been, its case managers are not           case managers.
                                           being provided the opportunity to
The FDIC Needs Complete and                                                          On December 16, 1999, the Director
                                           scrutinize a bank‘s current and
Timely Information to Effectively                                                    of DOS and the Director of the
                                           planned operations and activities on a
Monitor Megabanks                                                                    Division of Insurance issued a memo-
                                           timely basis. The effect of the condi-
As of September 30, 1999, the 39                                                     randum to the FDIC Chairman‘s
                                           tions under which the case managers
largest banking organizations in the                                                 Working Group discussing the types
                                           operate is that DOS may not have a
United States, often referred to as                                                  of information about large banks that
                                           timely or comprehensive understand-
“megabanks,” controlled assets total-                                                the FDIC needs to carry out its
                                           ing of the emerging risks that could
ing $4 trillion in FDIC-insured institu-                                             responsibilities and setting forth
                                           be developing in the largest banks.
tions. This amount represents 60 per-                                                some specific proposals for consider-
cent of the total assets of the approx-    Although the FDIC is not the primary      ation by the primary federal regula-
imately 10,300 FDIC-insured institu-       regulator for most of the megabanks,      tors. Included in that memorandum
tions. The FDIC is the primary federal     it would be called on to resolve the      were several references to the OIG‘s
regulator for only $101 billion in three   failure of a megabank. Thus, the          work and related concerns, as dis-
of these institutions. The OCC, FRB,       Corporation has a compelling need to      cussed above. We will continue to
and OTS regulate the remaining 36          become more familiar with the activi-     monitor the Corporation‘s efforts as it
institutions. Because the FDIC has a       ties of these institutions and with the   seeks to fully understand the opera-
presence in only 3 of the 39 largest       development of any potential risks to     tions of large banks and the possible
institutions, it is heavily dependent on   the insurance funds. Because it is        impact that a single insured institution
the other federal regulators to pro-       not feasible or prudent for the FDIC      or group of insured institutions can
vide the FDIC with the information it      to duplicate the efforts of the other     have on the deposit insurance funds.
needs to monitor megabank activi-          regulators, nor would the law permit
                                                                                     During the hearings on H.R. 3374,
ties. As referenced earlier, with the      such duplication, we believe the
                                                                                     the federal regulators promised
potential of even more consolidations      Corporation needs to develop closer
                                                                                     renewed efforts to ensure improved
as a result of the Gramm-Leach-Bliley      ties to its regulatory counterparts and
                                                                                     cooperation among the regulators.
Act, the FDIC‘s need for information       work toward obtaining real-time
                                                                                     We understand the bill was referred
is even more critical.                     information relative to megabank
                                                                                     to the House Subcommittee on
                                           financial activities.
The DOS case managers responsible                                                    Financial Institutions and Consumer
for monitoring the megabanks               In today‘s rapidly changing financial     Credit, Committee on Banking and
describe the level of cooperation they     environment, the economic condi-          Financial Services, on December 2,
receive from their regulatory counter-     tions faced by the largest banks can      1999.
parts as satisfactory. However, much       change direction with very little
                                                                                     Internet Banking
of the information that is provided to     warning. The near collapse of Long-
                                                                                     The banking industry is rapidly
DOS is dated and/or does not contain       Term Capital Management in
                                                                                     expanding into the area of Internet
sufficient detail to assess insurance      September 1998 and the failure of
                                                                                     banking. These banks are also assist-
risk. Additionally, the case managers      Keystone underscore the dangers
                                                                                     ing other corporations and busi-
are not sure of the universe of avail-     that exist and highlight the need for
                                                                                     nesses in initiating transactions over
able information maintained by the         banking regulators to work closely
                                                                                     the Internet. The principal benefits of
primary regulators, nor are they           with each other and share informa-
                                                                                     Internet banking--its global reach and
aware of the full range of a mega-         tion. We believe that developing
                                                                                     accessibility--present significant secu-
bank‘s off-balance sheet activities        detailed formal agreements with the
                                                                                     rity and other risks. DOS‘s challenge
such as unfunded commitments, let-         other regulators would significantly
                                                                                     is to ensure that it effectively evalu-
ters of credit, and trust operations.      improve the FDIC‘s ability to carry
                                                                                     ates Internet banking practices at
Equally important, the case managers       out its responsibility to monitor its
                                                                                     FDIC-insured institutions during its
are generally not permitted to attend      insurance risk.
                                                                                     safety and soundness examination
meetings between the primary regu-                                                   process.
lators and bank management during




                                                            14
During the reporting period we              not as the primary regulator, for         The environment in which financial
issued results of an audit survey that      about 4,430 financial institutions with   institutions operate is evolving
looked at this issue. We found that         total assets over $5.4 trillion.          rapidly, particularly with the accelera-
DOS‘s procedures generally provide          Although a steady decline in the          tion of interstate banking, new bank-
a sound framework for evaluating            number of insured institutions is pro-    ing products, electronic banking, and
Internet banking practices. However,        jected over the next several years,       consolidations that may occur among
we identified several opportunities to      total assets are projected to             the banking, insurance, and securi-
enhance supervisory activities              increase. The challenge to the            ties industries resulting from the
related to this type of banking.            Corporation is to ensure that its sys-    enactment of the Gramm-Leach-
                                            tem of supervisory controls will iden-    Bliley Act. Further, due to the public
We recommended that examiners
                                            tify and effectively address financial    interest aspect of consumer protec-
be required to use the Internet and
                                            institution activities that are unsafe,   tions and potential consumer expo-
FDIC Intranet during examination
                                            unsound, illegal, or improper before      sures, the FDIC has a strong incen-
planning and that such efforts be
                                            the activities become a drain on the      tive for the early detection and cor-
documented. Additionally, electronic
                                            deposit insurance funds.                  rection of problems in institutions,
banking examination training should
emphasize these steps.                      In accordance with statutory require-     promoting compliance with con-
                                            ments and corporate policy, DOS           sumer protection laws and regula-
DOS‘s Risk-Focused Examination                                                        tions, and increasing public under-
                                            projects starting almost 2,800 safety
Process                                                                               standing of and confidence in the
                                            and soundness examinations in
We are also nearing completion of           2000. DOS also provides off-site          deposit insurance system. The
our follow-up review of DOS‘s risk-         monitoring for all insured institu-       Division of Compliance and
focused examination process. Since          tions, including those for which it is    Consumer Affairs (DCA) is currently
1997, the FDIC has used a risk-             not the primary federal regulator.        reassessing its compliance and CRA
focused examination approach.               This monitoring includes reviewing        workload in consideration of the
Rather than following a standard            OCC, OTS, and FRB examinations            extended CRA examination cycles
examination program requiring the           and Securities and Exchange               required by the Gramm-Leach-Bliley
review of a large sample of loans,          Commission filings. DOS also              Act. DCA functions also include
this approach requires the examiner         processes applications for numerous       responding to consumer complaints
to first identify and test controls         bank activities such as new bank          and inquiries. The volume of these
within a bank and then modify sam-          proposals, mergers, and change of         complaints and inquiries is expected
ple selections accordingly. This tar-       control requests. Furthermore, DOS        to decrease from 175,000 in 2000 to
geted examination approach should           initiates formal enforcement actions      a range of 140,000 to 160,000 within
focus examination resources on the          and informal corrective programs as       the next 4 years.
greatest areas of risk in a bank, thus      a result of its examinations.             With the enactment of the Gramm-
increasing effectiveness without
                                            Protecting Consumers‘ Rights              Leach-Bliley Act, the FDIC, along
requiring additional time. The OIG
                                            In addition to safety and soundness       with other financial institution regula-
first audited the process in 1998 and
                                            issues, the Corporation must deal         tors, must implement regulations
made recommendations for improve-
                                            with matters related to bank compli-      requiring the institutions to develop
ments to management. Our follow-
                                            ance with laws pertaining to con-         programs to ensure the privacy of
up audit is determining whether cor-
                                            sumer protections and civil rights that   customer information. The Act limits
rective actions have been imple-
                                            are equally important in today‘s bank-    the instances in which a financial
mented and the process is working
                                            ing environment. A key consideration      institution may disclose nonpublic
as management intended.
                                            in this regard is the Community           personal information about a cus-
Supervising Insured                         Reinvestment Act (CRA), a 1977 law        tomer to nonaffiliated third parties
Institutions and                            intended to encourage insured banks       and requires a financial institution to
Protecting Consumer                         and thrifts to meet local credit needs,   disclose to its customers the institu-
Interests                                   including those of low- and moderate-     tion’s privacy policies and practices
                                            income neighborhoods, in a manner         with respect to information sharing
As of December 31, 1999, the FDIC           consistent with safe and sound oper-      with both affiliates and nonaffiliated
was the primary federal regulator for       ations. The Congress has mandated         third parties. The Act further requires
approximately 5,700 financial institu-      that the bank regulatory agencies         financial institutions to allow cus-
tions that have assets totaling nearly      evaluate institutions‘ CRA perfor-        tomers to opt out of such informa-
$1.3 trillion. In addition, the FDIC pro-   mance and that these evaluations be       tion sharing and requires that all
vides supervisory oversight, though         disclosed to the public.                  notices to customers be clear and




                                                             15
conspicuous. On February 2, 2000,         mediaries or brokers. Our attention is     and disposition.
the bank regulators issued a joint        focusing on activities relating to the
                                                                                     As of March 31, 2000, the FDIC held
notice of proposed rulemaking to          valuation of “interest-only residual
                                                                                     assets for liquidation that totaled
implement these requirements. The         receivables”-- a by-product of the
                                                                                     approximately $1.8 billion in book
agencies are currently evaluating the     securitization of the subprime loans.
                                                                                     value. Although the current and pro-
more than 6,000 comments and will         Additionally, we will report on the
                                                                                     jected asset workload is far below
be promulgating the final rules no        Corporation‘s supervision efforts and
                                                                                     the $165 billion held by the FDIC and
later than May 12, 2000, as required      regulatory oversight in addressing
                                                                                     Resolution Trust Corporation (RTC) in
under the Act.                            the risks associated with the
                                                                                     1992, effectively managing assets to
                                          interest-only receivables.
OIG Work Looks at Supervision and                                                    ensure their timely, efficient resolu-
Consumer Protection Issues                With respect to protecting consumer        tion at the least cost to the insurance
The OIG has several audits ongoing        interests, we have another audit in        fund continues to be one of the
to address matters of supervision         process. We performed an audit to          FDIC’s priorities.
and consumer interests, the full          determine whether DCA consistently
                                                                                     OIG Finds DRR‘s Subsidiaries
results of which will be reported in      applies CRA examination procedures
                                                                                     Inventory Incomplete
our next semiannual report.               within and among its regional offices
                                                                                     As a result of our audit of the
                                          and whether these procedures are
We are nearing completion of a                                                       Division of Resolutions and
                                          applied in a manner that ensures that
material loss review of a bank failure                                               Receiverships‘ (DRR) Northeast
                                          resulting ratings provide an accurate
that occurred during the reporting                                                   Service Center’s (NESC) subsidiaries
                                          measure of the bank‘s performance.
period, that of Pacific Thrift and Loan                                              inventory, we concluded that NESC
Company (PTL), Woodland Hills,            Finally, during the reporting period       did not have a full accounting of all
California. PTL was closed on             we completed an evaluation of              FDIC subsidiaries owned by failed
November 19, 1999 with total assets       DCA’s reporting of compliance and          institutions in its geographic area of
of $117.6 million. At the time of clo-    community affairs and outreach             responsibility. These subsidiaries con-
sure, the FDIC estimated that the         activities under the Government            sisted of subsidiaries of failed institu-
Bank Insurance Fund would incur a         Performance and Results Act of             tions as well as partnerships and
loss of $49.9 million. The estimated      1993. Because this review is               joint ventures in which those sub-
loss was raised to $52 million as of      more closely linked to the major           sidiaries had an ownership interest.
December 31, 1999.                        issue of “Establishing Goals and
                                                                                     Specifically, since the start of the
                                          Measuring Results,” we report our
The OIG is conducting this audit in                                                  audit the OIG and NESC identified
                                          results in that section of this semi-
accordance with section 38(k) of the                                                 731 subsidiaries that were not
                                          annual report.
Federal Deposit Insurance Act,                                                       included in the FDIC’s system of
which provides that if a deposit          Maximizing Returns                         record for subsidiaries. Without a
insurance fund incurs a material loss     from Failed Institutions                   complete inventory, the FDIC cannot
with respect to an insured depository                                                be assured that all financial institu-
institution on or after July 1, 1993,     One of the FDIC’s main goals is to         tions’ receivership assets have been
the Inspector General of the appro-       minimize the negative financial            properly identified and thus appropri-
priate federal banking agency shall       effects of failing and failed insured      ately managed or that the disposi-
prepare a report to that agency           depository institutions in its receiver-   tions of subsidiaries have been prop-
reviewing the causes of the bank‘s        ship management program. To do             erly accounted for and recorded.
failure and the agency‘s supervision      this, the Corporation concentrates on      Furthermore, we could not deter-
of the institution. A loss is consid-     four areas: resolving institutions at      mine whether NESC always per-
ered material if it exceeds $25 mil-      the least cost to the insurance funds,     formed asset searches before dis-
lion and 2 percent of the institution‘s   managing and marketing failed insti-       solving subsidiaries.
total assets.                             tutions’ assets to maximize return,        Our recommendations included that
                                          pursuing monies due to the failed          NESC should input the 429 sub-
PTL was an industrial loan company.
                                          institutions, and resolving debts of       sidiaries identified by our audit in its
Our review is examining PTL‘s
                                          the institutions fairly. Because of our    tracking system and perform asset
involvement in its principal business
                                          current strong economy and the             searches for the 731 subsidiaries
activity--the securitization of sub-
                                          Corporation’s concentrated efforts on      mentioned above. In addition, we
prime mortgage loans that were
                                          preventing financial institutions’ fail-   recommended that NESC coordinate
either generated through one of its
                                          ures, the focus of the FDIC’s atten-       with the Division of Finance’s Field
many loan production offices or pur-
                                          tion has moved from resolving failed       Finance Center in Dallas to identify
chased through other financial inter-
                                          institutions to asset management           and recover unclaimed accounts held




                                                            16
                                                                       factorily under the various agree-
                                                                       ments.
Update on Unclaimed Assets
                                                                       At the RTC‘s sunset date, the FDIC
                                                                       inherited a total of 72 securitization
On August 27, 1999, we issued an audit report enti-
                                                                       transactions with an initial credit
tled Audit of Abandoned Assets Held by States’                         reserve balance of $7.8 billion. As of
Unclaimed Property Agencies that identified 3,945                      March 25, 2000, the FDIC reported
accounts totaling about $3.3 million belonging to the                  that 39 active securitizations (a
FDIC or its receiverships being held by California and                 decrease of approximately 9 percent
Florida’s unclaimed property agencies. The OIG rec-                    from September 25, 1999) with a
ommended that the FDIC pursue recovery of these                        credit reserve balance of $1.9 billion
items as well as identify and recover FDIC assets that                 (down about 18 percent also from
may be held in other states’ unclaimed property agen-                  September 25, 1999) remained in its
cies. Since then, the Division of Finance reported that                inventory. A securitization involves
as of April 4, 2000, they have identified about 10,000                 selling securities that are primarily
potentially claimable items valued at between $5 mil-                  collateralized by various types of real
lion and $6 million. Although some states have been                    estate loans to investors. To sell
slow in responding to claims, the Division of Finance                  large amounts of loans most effi-
has collected approximately $1 million thus far.                       ciently and obtain the greatest finan-
                                                                       cial benefit, receivership loans are
                                                                       pooled together as collateral to back
                                                                       securities sold to investors in the
                                                                       secondary market. This process
                             by states’ unclaimed property offices     results in mortgage-backed securi-
                             that belong to subsidiaries of FDIC       ties, or pass-through certificates.
                             receiverships managed by the NESC         The FDIC assumed 42 equity partner-
                             (see feature on Update on                 ships (which does not include the
                             Unclaimed Assets).                        Judgments, Deficiencies, and
                             Although DRR believed there was           Charge-offs Program) with assets
                             not adequate business justification to    having an original book value of
                             fully pursue several of our recom-        $9 billion from the RTC. As of
                             mendations, we continue to believe        February 29, 2000, the FDIC reported
                             that a system of record should            that 35 equity partnership agree-
                             include all entities it is designed to    ments with assets having a book
                             track and that asset searches should      value of about $422 million remained
                             be routinely performed to ensure          in its inventory. Underlying assets
                             that all subsidiary assets are properly   include sub- and non-performing
                             accounted for.                            mortgage loans and owned real
                                                                       estate. The Corporation has a limited
                             The FDIC Audit Committee has              ownership interest in the equity part-
                             requested additional information          nerships, which are set up so that
                             related to these matters from the         the private-sector party that holds the
                             OIG. Such information will be pro-        general ownership interest is respon-
                             vided at an upcoming Audit                sible for disposing of the assets.
                             Committee meeting.
                                                                       During the current reporting period
                             FDIC‘s Position in                        we completed five audits that
                             Securitizations and Equity                focused on the roles, responsibilities,
                             Partnerships Remains                      and effectiveness of servicers,
                             Substantial                               trustees, and the FDIC in equity part-
                             The OIG helps ensure that the             nerships. These audits resulted in
                             FDIC’s interests in securitizations       questioned costs of $1.2 million.
                             and equity partnerships are ade-
                             quately protected and that the
                             related entities are performing satis-




                                              17
Audits of Equity Partnership Servicer     court-ordered restitution is the result    these efforts and better support the
AMRESCO Result in over $1 Million         of criminal convictions stemming           Corporation and its customers.
in Questioned Costs                       from schemes to defraud federally
                                                                                     The Strategic Plan contains six key
We conducted three audits this            insured institutions that have
                                                                                     goals in the IT area: Improve
semiannual period of AMRESCO              resulted in losses to the FDIC. As of
                                                                                     Customer Satisfaction with
Management’s servicing of RTC             March 31, 2000, a total of $1.1 billion
                                                                                     Application Systems; Reduce
Mortgage Trusts 1993-N3, 1994-N1,         is due as a result of outstanding
                                                                                     Corporate Costs Through the Use of
and 1994-N2 (Trusts). We concluded        criminal restitution orders.
                                                                                     Technology; Manage Information for
that AMRESCO accurately                   Additionally, the FDIC is continuing       the Corporation; Provide an IT
accounted for and reported the            to attempt to collect debts it is          Infrastructure That Works
Trusts’ income. However, we ques-         owed as a result of loans originated       Everywhere, All the Time; Improve
tioned fees paid to affiliates, servic-   by financial institutions prior to their   the Efficiency and Effectiveness of IT
ing fees, investor expenses, and mis-     failure. The OIG’s investigative work      Management; and Fix the Year 2000
cellaneous expenses that AMRESCO          in these cases is undertaken if there      Problem. Accomplishing these goals
charged to the Trust. As a result, we     are indications that the debtors may       efficiently and effectively requires
questioned costs of $1.1 million,         have engaged in criminal activity in       significant expenditures of funds and
which represents the FDIC’s 51-per-       their interactions with the FDIC.          wise decision-making and oversight
cent partnership share of unallow-        Some of these cases involve false          on the part of FDIC managers. As
able expenses that we identified.         statements and elaborate schemes           discussed earlier in this report, the
Prior to these three audits, we           to conceal assets, including illegal       Corporation can take great pride in
issued one other report on                transfers to others. By pursuing           having successfully achieved the last
AMRESCO in August 1999 where              criminal prosecution of these individ-     of these--fixing the Y2K problem. It
we questioned an additional $1.2 mil-     uals, we can help maximize recover-        continues to devote resources to the
lion. In total, we have identified $2.4   ies for the FDIC.                          other five goals. The Corporation
million (rounded) in questioned costs                                                invested approximately $217 million
                                          Since October 1999, the OIG has
for AMRESCO’s servicing activities.                                                  in IT resources during calendar year
                                          opened 13 new cases that are being
                                                                                     1999. The FDIC‘s IT budget for 2000
Future audit areas will include the       coordinated with DRR and involve a
                                                                                     is approximately $204 million.
claims review process for securi-         total of over $87 million in outstand-
tized transactions and whether the        ing restitution orders or other types      OIG‘s Information Technology
FDIC has received its share of resid-     of debt. At the end of the period we       Work
ual interest payments under the set-      had 64 such investigations that were       The OIG‘s work in the IT area is con-
tlement and workout asset team            ongoing. The subject of one of these       ducted with a view toward the goals
program. As discussed later in this       investigations was indicted during         the Corporation is trying to achieve.
report, in keeping with the spirit of     the period and two subjects of             As discussed earlier, a principal focus
the Government Performance and            another investigation who had previ-       of our work related to IT over the
Results Act, current and future OIG       ously claimed to be insolvent repaid       past 3 years was in connection with
work is intended to aid DRR in            the FDIC over $6.5 million in indebt-      the Corporation‘s Y2K efforts. Our
accomplishing its goals, such as          edness (see Investigations section         other IT work generally focuses on
strengthening its oversight of secu-      of this report).                           systems development efforts; spe-
ritization transactions, as outlined in   Managing Information                       cific application reviews; computer
its strategic plan.                                                                  services and security; and planning,
                                          Technology
                                                                                     procurement, and administration.
OIG Work Results in Joint
                                                                                     During the reporting period we
Investigative Cases That May              According to the Corporation‘s
                                                                                     issued the results of work in several
Recover Millions of Dollars               Information Technology Strategic Plan
                                                                                     of these areas, as described below.
The OIG continued to coordinate           for 1998-2003, IT is critical to the
closely with DRR both at headquar-        FDIC‘s success and can be leveraged        IT Strategic Planning
ters and the field offices on investi-    to support its business goals. The         The OIG analyzed the Corporation‘s
gations of suspected criminal activity    Corporation is focusing its efforts on     IT strategic planning carried out in
involving court-ordered restitution       key business processes that are most       1999 and issued a comprehensive
and other debts that are owed to the      fundamental to the Corporation‘s suc-      report that evaluated the effective-
FDIC as a result of the takeover of       cess and is working to improve these       ness of the planning process and
failed banks and thrifts. As noted in     processes. At the same time it is          practices related to acquiring, devel-
previous semiannual reports, the          seeking to identify where and how          oping, and managing IT resources.
                                          technology can be used to support




                                                           18
The FDIC‘s IT strategic planning          ensures IT spending is prioritized         until the time that the employee
process has been evolving and             from a corporate perspective.              leaves the Corporation. It includes
improving since 1996 when the             Providing the Technical Committee          establishing policies and procedures
Corporation established the planning      with additional time and information       related to the recruitment, employ-
structure and process currently in        during the planning process can also       ment, classification, training, man-
use. The FDIC continued to imple-         improve planning and evaluation of IT      agement, promotion, and retirement
ment significant improvements to its      investments categorized as “Other          of personnel. Human resources
strategic IT planning process and         Development.” Approximately $12            administration also includes the col-
practices during 1999. For the first      million budgeted for Other                 lection and maintenance of the data
time since its establishment in 1996,     Development initiatives for 2000           related to the employment process.
the Technical Committee was suc-          were not evaluated by the Technical
                                                                                     During the reporting period we com-
cessful in developing a proposed IT       Committee.
                                                                                     pleted an audit of the initial planning
budget that prioritized discretionary     While the FDIC established formal          and procurement phases of the
spending from a corporate perspec-        strategic IT goals and objectives in       Corporate Human Resources
tive. That is, rather than each pro-      the FDIC IT Strategic Plan, it needed      Information System (CHRIS) develop-
gram office performing IT planning        to better measure its performance in       ment project. The CHRIS project was
from a divisional or office perspec-      accomplishing such goals and objec-        initiated to develop an integrated,
tive, the Technical Committee             tives. DIRM had not developed an           automated system that would sup-
focused on prioritizing projects from     ongoing mechanism for reporting            port core human resources business
a corporate perspective. Prioritizing     overall IT performance information to      functions performed by the Division
IT investments has been recognized        the IT Council or Technical                of Administration‘s (DOA) Personnel
as a best practice of leading organi-     Committee. In addition, the FDIC           Services Branch. The cost estimate
zations and is a key tenet of recent      was not tracking or reporting total        for CHRIS development as of
IT legislation. The Technical             life cycle costs on individual IT pro-     March 31, 2000 was $15.7 million.
Committee also developed a formal         jects. Accordingly, it was not possi-      The FDIC expects to fully implement
strategic IT direction with each FDIC     ble for the FDIC to compare actual         CHRIS by the fourth quarter of 2003
division and began using a post-          costs and benefits with those esti-        to consolidate the FDIC‘s human
implementation review program to          mated at the time a project was            resources information systems.
assess the quality of its system          approved. Measuring performance
development projects and improve                                                     Throughout the project‘s develop-
                                          against established goals and objec-
overall IT management.                                                               ment, the OIG will continue to pro-
                                          tives is a fundamental principle of the
                                                                                     vide proactive audit coverage and
Although the FDIC has made meaning-       Government Performance and
                                                                                     provide FDIC management with sug-
ful progress in selecting, managing,      Results Act. Performance measure-
                                                                                     gestions and recommendations
and evaluating its IT investments from    ment information is critical for deter-
                                                                                     regarding the project. Our overall
a corporate perspective, our review       mining whether the FDIC‘s IT invest-
                                                                                     audit objectives are to determine
identified opportunities for further      ments deliver promised benefits and
                                                                                     whether (1) CHRIS development is
improvement. Specifically, we propose     meet the business goals and objec-
                                                                                     adhering to established and generally
that more attention to long-range         tives of the Corporation. Performance
                                                                                     accepted system development life
strategic planning would allow the        measurement information can also
                                                                                     cycle procedures and (2) system
Technical Committee to consider alter-    serve as an early indicator of poten-
                                                                                     deliverables satisfy user require-
native solutions to the FDIC‘s IT needs   tial problems and encourages man-
                                                                                     ments in a cost-effective and timely
and result in a more substantive evalu-   agerial accountability by linking infor-
                                                                                     manner. Our first audit report
ation of IT spending. We acknowl-         mation about program outcomes to
                                                                                     focused on the project‘s early devel-
edged that planned control improve-       established goals.
                                                                                     opment activities, including initial pro-
ments to better control IT resource       Finally, we identified several opportu-    ject planning and the award of soft-
reallocations would help ensure that IT   nities for the FDIC to improve its         ware and services contracts to sup-
spending is based on corporate, rather    post-implementation review process.        port CHRIS. Our audit results were
than divisional, priorities.                                                         very positive.
                                          Corporate Human Resources
In addition, we suggested that                                                       The CHRIS project team determined
                                          Information System
improvements in how the Division of                                                  that the current human resources
                                          Human resources administration
Information Resources Management                                                     systems were cumbersome, techno-
                                          encompasses a wide range of func-
(DIRM) categorizes its IT invest-                                                    logically outdated, and unable to sup-
                                          tions related to the management of
ments would result in a more strate-                                                 port the integration of the large vol-
                                          personnel from the time a prospec-
gically focused IT budget that                                                       ume of data needed to manage the
                                          tive employee applies for a position




                                                           19
Corporation‘s workforce. The CHRIS        communication regarding current and    tion pertaining to assets of failed
team developed a cost-benefit analy-      planned systems and initiatives. In    institutions controlled and serviced
sis to determine the most cost-bene-      addition, we recommended that field    by the FDIC.
ficial course of action for the FDIC in   offices be represented at regional
                                                                                 To better ensure data integrity, we
developing an integrated CHRIS. Our       office management information
                                                                                 recommended that DRR establish
review supports the CHRIS project         group meetings. We also recom-
                                                                                 more effective controls, including
team‘s recommendation to acquire          mended that DOS regional and field
                                                                                 detailed data integrity criteria for the
commercial off-the-shelf software to      personnel communicate with their
                                                                                 NPS and other critical DRR systems
support its human resources busi-         Division of Information Resources
                                                                                 of record. DRR can also improve
ness functions as a reasonable and        Management counterparts during the
                                                                                 data integrity by developing and
valid decision resulting from the         planning and development of applica-
                                                                                 communicating a more comprehen-
cost-benefit analysis process.            tion systems to ensure that devel-
                                                                                 sive definition of data steward
Further, the solicitation and award       oped products are compatible with
                                                                                 responsibilities and ensuring effec-
process for the implementation of         the FDIC‘s system architecture.
                                                                                 tive oversight for the data steward
CHRIS was well supported and fol-         Finally, in the interest of ensuring
                                                                                 self-certification process. In addi-
lowed FDIC procurement policies.          data integrity, we recommended that
                                                                                 tion, implementing better error pre-
                                          DOS data stewards identify and
OIG Reviews DOS Tracking Systems                                                 vention and correction strategies
                                          review undefined data codes con-
The OIG completed a review of                                                    would serve to improve DRR data.
                                          tained in DOS tracking systems.
DOS‘s tracking systems for examina-                                              Ensuring Sound Controls
tion scheduling and completion, rat-      Data Integrity Controls for Selected
                                                                                 and Oversight of
ings, and examination results. DOS        DRR Systems
                                                                                 Contracting Activities
officials requested the OIG‘s assis-      The FDIC‘s DRR is responsible for
tance in determining whether these        the management and disposition of
                                                                                 The FDIC contracts with the private
systems were addressing the needs         assets acquired from failed insured
                                                                                 sector as necessary to accomplish
of headquarters, regional, and field      financial institutions. As discussed
                                                                                 its mission. The Corporation is
personnel; determining the extent         in the previous Major Issue, asset
                                                                                 responsible for ensuring that it is
and impact of regional and field          levels have been reduced signifi-
                                                                                 receiving the goods and services it
development of supplemental sys-          cantly in each of the past 4 years.
                                                                                 is paying for and that it has suffi-
tems on DOS‘s national systems;           This can be attributed in large part
                                                                                 cient controls over contractor
and identifying experiences gained        to DRR‘s effective disposal program
                                                                                 billings to help prevent fraud and
through such development that             and to the health of the banking
                                                                                 abuse. To accomplish this, the
could benefit development of              industry, which has resulted in very
                                                                                 Corporation must be diligent in its
national systems, such as the             few assets being added to DRR‘s
                                                                                 contract oversight so that it can pur-
redesign of the Banking Information       inventory of assets in liquidation.
                                                                                 sue claims against contractors,
Tracking System.                          The OIG conducted a review that        which can be impaired if the FDIC is
Our review determined that current        focused on data integrity controls     found to be at fault for lapses in its
systems generally meet DOS head-          for selected systems used by DRR       own oversight of the contractors’
quarters needs but that field person-     to manage assets of failed institu-    activities.
nel needed supplemental systems to        tions, including owned real estate,
                                                                                 Contractors assist the FDIC in many
effectively perform their mission. We     loans, and subsidiaries. These sys-
                                                                                 areas including legal matters, prop-
did not identify any significant dupli-   tems are used by the Corporation to
                                                                                 erty management, loan servicing,
cation of field system development,       measure performance under the
                                                                                 asset management, IT, and financial
nor had field systems negatively          Government Performance and
                                                                                 services. Projections of year 2000
impacted data accuracy or complete-       Results Act.
                                                                                 non-legal contract awards and pur-
ness of national systems data. In         Systems supporting DRR functions       chases total 3,000 actions valued at
addition, the field systems identified    include the National Processing        approximately $230 million. One of
generally met the needs of users.         System (NPS), Credit Notation          the most active areas of contracting
We did, however, identify opportuni-      System, Owned Real Estate              in the Corporation regards IT. As of
ties to further enhance the develop-      System, and the Subsidiaries           March 31, 2000, there were more
ment, operation, and maintenance of       Management Information Network.        than 375 active information
DOS field systems. We recom-              NPS, a mainframe-based system, is      resources management contracts
mended that DOS develop a charter         jointly owned by DRR and the           valued at approximately $420 million
for its regional office management        Division of Finance and is the sys-    that had been awarded in headquar-
information group to ensure effective     tem of record for financial informa-   ters. Approximately $220 million of




                                                          20
this expenditure authority for active
contracts had been spent and $200
million remained to be used.                OIG/OICM Brief DOA on
                                            Contracting Oversight
The OIG has continued to focus on
auditing contracts and agreements           On March 29, 2000, the OIG and the Office of
and is focusing considerable audit          Internal Control Management (OICM) co-presented a
attention on the Corporation‘s IT ser-
                                            briefing to the Division of Administration (DOA)
vice contracts. The OIG currently has
                                            regarding contracting oversight, which has been the
five ongoing audits of almost
                                            focus of 64 percent (18 out of 28) of the DOA audits
$107 million in billings paid to IT ser-
                                            over the last 2 years. Messages from both the OIG
vice contractors. The purpose of
these audits is to determine whether        and OICM were similar on many issues, such as the
billings were allowable and support-        need for improving the process of obtaining back-
able. For four of the five contractors      ground investigations for contractors and clarifying
under audit, the FDIC procured IT           statements of work to define tasks, requirements,
services from vendors that were pre-        and contract deliverables.
qualified under the General Services
Administration Federal Supply               Other items discussed included the OIG’s work in the
Service’s IT Multiple Award                 information technology service contract area, an
Schedule program.                           important focus at present. Related issues included
                                            the use of unauthorized subcontractors, rate vari-
Evaluation of MCI Voice and                 ances with the General Services Administration (GSA)
Video Contract Results in                   schedule (the FDIC often uses delivery orders under
$2.2 Million in Funds Put to                GSA contracts to obtain its information technology
Better Use                                  service contracts), and employees who did not meet
In light of increasing competition in       minimum GSA and FDIC experience qualifications.
the telecommunications industry, the
OIG initiated a series of reviews of
the Corporation’s contract with MCI
WorldCom (MCI) for voice and video          Update on the OIG‘s Evaluation of the
services to determine if the FDIC           FDIC Headquarters Copier
was obtaining the best possible com-        Administration Program
petitive price. These reviews include
(1) an evaluation of the contract price     The Corporation’s Acquisition and Corporate
warranty clause, (2) participation in       Services Branch (ACSB) expects savings of
interdivisional task force initiatives to   $1.25 million in 2000 from copier program changes.
analyze voice and data pricing, (3) an      Our study predicted 5-year savings of between $6.1
evaluation of historical contract com-      and $6.5 million. ACSB has estimated that actual
pliance, and (4) an evaluation of the       5-year savings will approach $6.3 million. We raised
efficiency and effectiveness of the         similar issues for two regional offices. The San
FDIC‘s contract monitoring efforts.         Francisco Regional Office is in the process of
These last two reviews are ongoing.         reassessing its copier program as part of its efforts
The FDIC awarded the voice and              to lease new office space, and the Dallas Regional
video contract to MCI in late 1996.         Office also intends to reassess its copier program in
The contract included a price war-          the near future.
ranty clause that required MCI to
adjust contract pricing each option
year to match pricing offered to
other MCI customers under
General Services Administration
(GSA) contracts. The Corporation
was entering option year 3 of the
contract at the outset of our
review.




                                                  21
In September 1999, MCI certified         the workforce, as the Corporation’s       • Enhancing the internal and
that its pricing was in compliance       needs have changed, employees               external selection processes,
with the terms of the price warranty.    have been relocated to best serve
                                                                                   • Addressing benefits and work-
During our review of the contract,       those changing needs.
                                                                                     place issues, and
we found that MCI’s long distance        The FDIC has faced staffing short-
voice prices proposed for option year                                              • Monitoring progress in
                                         ages in certain critical skill areas
3 of the contract did not comply with                                                establishing accountability.
                                         owing to the loss of such a high
the price warranty in that MCI’s pric-   number of staff and strict prohibi-       Focusing on the Corporation‘s
ing for the FDIC was not competitive     tions on hiring from 1992 through         Most Important Asset
with prices offered to other MCI cus-    1997. Additionally, through the use       The Corporation’s circumstances are
tomers under the GSA contract. We        of employee buyouts, early retire-        somewhat reflective of conditions
also discussed with DOA the reason-      ments, and other downsizing activi-       government-wide. Comptroller
ableness of a surcharge that MCI         ties, the Corporation has lost a num-     General David Walker from the U.S.
was billing for intrastate calls. On     ber of highly experienced managers        General Accounting Office is cham-
March 13, 2000, MCI and the FDIC         and senior technical experts. The         pioning the concept of “human capi-
executed a modification to the con-      Corporation predicts that approxi-        tal,” stating at a September 1999
tract wherein MCI agreed to provide      mately one of every six remaining         conference sponsored by the
GSA-contract pricing for outbound,       FDIC employees will be eligible to        National Academy of Public
inbound, and calling card calls.         retire by year-end 2003. The              Administration in Washington, D.C.:
Further, MCI agreed to eliminate the     Corporation has been challenged to        “The key competitive difference in
surcharge for intrastate calls. By       conserve and replenish the institu-       the 21st century will be people. It
effecting these changes, we esti-        tional knowledge and expertise that       will not be process. It will not be
mated that the FDIC would save           has guided the organization over the      technology. It will be people. The
$2.18 million over the remaining         past years.                               stakes are high.” In short, according
21 months of the contract, a                                                       to Walker, the government cannot
program savings of 47 percent.           The Corporation has included devel-
                                                                                   maximize its resources and account-
                                         oping a strategy to ensure that the
We also participated in two interdivi-                                             ability without focusing on its most
                                         next generation of managers and
sional task forces that included DOA,                                              important asset: employees. Walker
                                         senior professionals is prepared to
DIRM, and the OIG to evaluate voice                                                is urging all agency leaders to take
                                         assume future leadership positions in
and data pricing under the GSA con-                                                steps to improve their human capital
                                         the FDIC as a 2000 corporate annual
tract. We presented this information                                               practices.
                                         performance goal. Additionally, the
to DOA for its use in negotiating        Corporation’s Diversity Strategic Plan    As a first step, the U.S. General
new pricing with MCI.                    has been designed to directly             Accounting Office proposes a five-
Addressing Human                         address the challenge of “institu-        part self-assessment framework:
Capital Issues                           tional knowledge and expertise.”
                                                                                   • Strategic planning to establish
                                         During 1999, the focus was on com-          agency mission, vision, core
In past semiannual reports we have       municating the message of the               values, goals, and strategies.
cited the changing environment at        Diversity Strategic Plan corporate-wide
the FDIC as a major issue facing the                                               • Organizational alignment to
                                         and developing a framework for imple-
Corporation. We have noted that                                                      integrate human capital strategies
                                         mentation of the plan. In 2000, the
since 1994, as the work emanating                                                    with core business processes.
                                         Corporation’s focus will be on the ini-
from the banking and thrift crises has   tial implementation of the plan’s         • Leadership to foster committed
declined and continued consolidation     strategies and measuring their effec-       leadership and give continuity
of the financial services industry has   tiveness.                                   through succession planning.
occurred, the FDIC has accordingly
reduced its workforce substantially.     The diversity plan includes proposed      • Talent to recruit, hire, develop,
The workforce has fallen from a high     actions in six areas:                       and keep appropriately skilled staff.
of about 15,600 in mid-1992 to 7,177     • Building commitment and devel-          • Performance culture to enable
as of March 31, 2000. FDIC staffing        oping awareness,                          and motivate performance while
is expected to decline to approxi-                                                   maintaining accountability and fair-
mately 6,549 positions by the end of     • Enhancing the corporate recruiting
                                                                                     ness for all employees.
2000, down from the 7,265 positions        program,
authorized for the end of 1999. In                                                 To implement this framework, organi-
                                         • Creating developmental
addition to reductions in the size of                                              zations need information systems
                                           opportunities,




                                                          22
that allow managers to identify skills   security over confidential information.   Institutions Are Safe and Sound,
imbalances and project future needs.                                               (3) Consumers’ Rights Are Protected
                                         We did, however, identify possible
Also of importance is that the human                                               and FDIC-Supervised Institutions
                                         situations that could have an adverse
capital strategy and workforce plan-                                               Invest in Their Communities, and
                                         impact on the Corporation’s ability to
ning system are directly linked to the                                             (4) Recovery to Creditors of
                                         keep information confidential. To bet-
organization’s overall strategic and                                               Receiverships Is Achieved. Through
                                         ter ensure security over confidential
performance plans.                                                                 its annual performance reports, the
                                         information, we made a number of
                                                                                   FDIC will be accountable for report-
As discussed earlier in this section,    recommendations related to security
                                                                                   ing actual performance and achieving
to address the changing environ-         walk-throughs, employee reminders,
                                                                                   these strategic results, which are
ment at the FDIC, the Corporation        written procedures, system controls,
                                                                                   closely linked to the major issues dis-
has begun taking a closer look at its    and access to confidential applicant
                                                                                   cussed in this semiannual report.
approach to doing business. With         information. Management agreed
this approach, the Corporation is        with all of our suggestions. The posi-    The Corporation has made significant
looking upon human capital as a          tive response we received to our          progress in implementing the
corporate-wide issue and is working      draft report is indicative of manage-     Results Act and will continue to
to design associated strategies and      ment’s support and commitment to          address the challenges of developing
practices to directly support the        the implementation of internal con-       more outcome-oriented performance
achievement of its mission, strate-      trols that will help protect confiden-    measures, linking performance goals
gic goals, and core values. The          tial information.                         and budgetary resources, and estab-
FDIC, as well as other federal agen-                                               lishing processes to verify and vali-
                                         Establishing Goals and
cies, may find it necessary to mod-                                                date reported performance data. The
                                         Measuring Results
ernize its human capital policies and                                              FDIC is committed to fulfilling both
practices by placing additional focus                                              the requirements of the Results Act
                                         The Government Performance and            and congressional expectations that
on employees and aligning its “peo-
                                         Results Act (Results Act) of 1993         the plans clearly inform the
ple policies.” Designing, imple-
                                         was enacted to improve the effi-          Congress and the public of the per-
menting, and maintaining effective
                                         ciency, effectiveness, and account-       formance goals for the FDIC’s major
human capital strategies are seen
                                         ability of federal programs by estab-     programs and activities, including
as critical to improving performance
                                         lishing a system for setting goals,       how the agency will accomplish its
and accountability. With that in
                                         measuring performance, and report-        goals and measure the results.
mind, over the next few months
                                         ing on accomplishments. Specifically,
the OIG will initiate work in this                                                 OIG Formulates Results Act
                                         the Results Act requires most fed-
area to assist the Corporation in
                                         eral agencies, including the FDIC, to     Review Plan
identifying and addressing its
                                         prepare a strategic plan that broadly     On October 7, 1998, the
human capital concerns.
                                         defines the agencies’ mission and         Congressional House Leadership
OIG Review of Controls over              vision, an annual performance plan        sent a letter to the Inspectors
Confidential Information                 that translates the vision and goals of   General of 24 executive agencies
During the reporting period we com-      the strategic plan into measurable        requesting that they develop and
pleted an evaluation review that         objectives, and an annual perfor-         implement a plan for reviewing their
touched on a human capital-related       mance report that compares actual         agencies‘ Results Act activities. The
issue. At the request of corporate       results against planned goals.            Results Act review plan would be
management, we examined internal                                                   submitted as part of the OIG’s semi-
                                         The Corporation’s strategic plan and
controls over confidential information                                             annual reports to the Congress (and
                                         annual performance plan lay out the
collected and generated during the                                                 updated at least annually thereafter)
                                         agency’s mission and vision and
application process in the Personnel                                               and would examine (1) agency
                                         articulate goals and objectives for the
Services Branch in Washington. We                                                  efforts to develop and use perfor-
                                         FDIC’s three major program areas:
identified control techniques in place                                             mance measures for determining
                                         Insurance, Supervision, and
and being implemented that provide                                                 progress toward achieving perfor-
                                         Receivership Management. The
reasonable assurance that the confi-                                               mance goals and program outcomes
                                         plans focus on four strategic results
dentiality of information collected                                                described in their annual perfor-
                                         that define desired outcomes identi-
and generated during the application                                               mance plan and (2) verification and
                                         fied for each program area. The four
process is maintained. In addition to                                              validation of selected data sources
                                         strategic results are: (1) Insured
the control techniques already in                                                  and information collection and
                                         Depositors Are Protected from Loss
place, the Corporation took steps                                                  accounting systems that support
                                         Without Recourse to Taxpayer
during our review to improve the                                                   Results Act plans and reports.
                                         Funding, (2) Insured Depository




                                                          23
Findings and recommendations             Several examples of OIG results          had also identified the system and
from Results Act reviews would be        during the reporting period that are     information sources used to validate
included in each subsequent semi-        linked to Results Act issues and         and verify performance data as
annual report. The Congress              concepts follow:                         required by the Results Act. DCA
attaches great importance to effec-                                               used the “Bank Start Date” in the
                                         • In our work on the FDIC’s strategic
tive implementation of the Results                                                Compliance Statistical System to
                                            planning for IT resources, we
Act and believes that Inspectors                                                  determine whether its targeted per-
                                            underscored the need for the
General have an important role to                                                 formance levels for compliance and
                                            Corporation’s IT investments to
play in informing agency heads and                                                CRA examinations were achieved
                                            directly support the accomplish-
the Congress on a wide range of                                                   during each of the quarters in 1998.
                                            ment of its goals under the Results
issues concerning efforts to imple-                                               We provided assurance that the
                                            Act and made several recommen-
ment the Results Act.                                                             Bank Start Date data element in the
                                            dations related to better measuring
                                                                                  Compliance Statistical System was a
OIG’s Results Act Review Plan               and reporting such information.
                                                                                  reliable source for reporting examina-
The FDIC OIG is fully committed to       • Our review of data integrity con-      tion activities in the FDIC‘s quarterly
taking an active role in the               trols for DRR systems recom-           performance reports.
Corporation’s implementation of the        mended that the division establish
Results Act. We have developed a                                                  With regard to the community affairs
                                           more effective controls for its
Results Act review plan to help                                                   and outreach goals, we found differ-
                                           systems of record that are relied
ensure that the Corporation satisfies                                             ences between the number of
                                           upon for reporting results against
the requirements of the Results Act                                               events and activities reported by
                                           the Corporation’s performance plan.
and maintains systems to reliably                                                 headquarters in the quarterly perfor-
measure progress toward achieving        • As part of our audit work in the       mance reports and those reported by
its strategic and annual performance       area of the FDIC’s accounts            the regional community affairs offi-
goals. Our review plan consists of the     payable operations, we determined      cers. We found that most of the
following three integrated strategies:     that the FDIC had taken steps to       community affairs and outreach activ-
                                           prepare for the necessary Results      ities reported in 1998 were sup-
• Linking Planned Reviews to the           Act reporting requirements related     ported by an ample amount of docu-
  Results Act. We will link planned        to accounts payable activities to be   mentation. However, the numbers of
  reviews to corporate strategic           reported in March 2000.                participants in the activities and the
  goals and annual performance                                                    results of the events were not
  goals and provide appropriate          Targeted Verification Review of the
                                                                                  always sufficiently supported. We
  Results Act coverage through           Division of Compliance and
                                                                                  made four recommendations related
  audits and evaluations. As part of     Consumer Affairs’ Reporting of
                                                                                  to maintaining adequate documenta-
  this strategy, the OIG has estab-      Performance Results
                                                                                  tion and accurate reporting to
  lished specific goals in its own       We completed an evaluation of the
                                                                                  address these concerns.
  annual performance plan to             DCA‘s reporting of compliance and
  demonstrate how the OIG reviews        CRA examinations and community           The Director, DCA, agreed with three
  link to corporate strategic goals.     affairs and outreach activities under    of our four recommendations. For
                                         the Results Act. The objective of        the fourth, we believe existing con-
• Targeted Verification Reviews.                                                  trols will serve to effectively address
                                         our review was to determine the
  We will maintain a program of                                                   our concern.
                                         adequacy and reliability of the infor-
  independent reviews to evaluate
                                         mation system and data supporting
  the adequacy and reliability of                                                 OIG Reviews Corporate
                                         DCA’s performance reporting of
  selected information systems and                                                Performance Plans
                                         compliance and CRA examinations
  data supporting FDIC performance                                                During this reporting period, the OIG
                                         and community affairs and out-
  reports. The OIG has developed a                                                also reviewed and provided advisory
                                         reach activities.
  standard work program to conduct                                                comments to management on the
  these evaluations.                     We found that DCA had established        FDIC’s 2000 Performance Plan. We
                                         goals, targets, and performance indi-    also reviewed and provided com-
• Advisory Comments. We will
                                         cators for compliance and CRA            ments on the FDIC’s initial annual
  continue our practice of providing
                                         examinations and community affairs       Program Performance Report cover-
  advisory comments to the
                                         and outreach activities. Further, DCA    ing calendar year 1999 that, under
  Corporation regarding their update
                                         had included information in the          the Results Act, was submitted to
  or cyclical preparation of strategic
                                         Corporation’s quarterly performance      the President and the Congress on
  and annual performance plans and
                                         reports to show its progress in meet-    March 31, 2000. For future annual
  reports.
                                         ing these goals and objectives. DCA      cycles, the OIG will continue to




                                                          24
advise management regarding the            GAO Continues to Convey FDIC Financial Statement
Corporation‘s Results Act plans and        Audit Work to OIG
reports undergoing development or
revision.                                  The process of transferring full responsibility for the FDIC annual
The OIG will continue to develop           financial statement audit from the U.S. General Accounting Office
and refine its integrated oversight        (GAO) to the FDIC OIG continued this reporting period. Within the
strategy so that the OIG‘s Results         OIG, this task is shared between the Washington and Dallas
Act-related efforts fully conform to       offices. Whereas the OIG Washington staff is responsible for cash,
the spirit and intent of the Act. The      investments, and expenses, the OIG Dallas staff has assumed com-
OIG will also continue to monitor          plete responsibility for auditing net receivables from failed banks
and review legislation proposed in         and thrifts, FDIC’s loan loss reserve process, the methodology and
the Congress to amend the Results          process for the valuation of receivership assets, internal controls
Act and will actively participate          over receivership receipts and disbursements, and FDIC’s oversight
through the President’s Council on         of contractors who manage and dispose of receivership assets for
Integrity and Efficiency and the           the FDIC. The GAO currently relies on the OIG’s work for the
interagency groups it sponsors to          above-mentioned portions of the FDIC’s financial statement audit,
refine appropriate OIG Results Act         and the OIG remains committed to working toward its goal of
roles, responsibilities, and activities.   obtaining sole responsibility for this audit. The OIG will continue
                                           to work with the GAO to seek the legislative change necessary to
                                           accomplish this shift in responsibility.

                                           As in previous years, the Inspectors General, including the FDIC’s
                                           Inspector General, will certify the accuracy of their agency’s fiscal
                                           year financial data included in the government’s consolidated finan-
                                           cial audit.

FDIC‘s Energy Management and Conservation
Efforts at Its Headquarters Facilities

Since the mid-1970s, energy management and conservation have been priorities
in the federal sector as a result of escalating energy costs. In recent months, the
Clinton administration announced its intent to have government agencies focus
attention on this area. To assist the Corporation in its energy conservation
endeavors, the OIG initiated a review to assess the Corporation‘s energy man-
agement and conservation efforts at the Corporation’s owned headquarters
buildings.

We found that the Corporation had implemented a number of capital improve-
ments since at least 1989 to enhance energy management and conservation at
headquarters buildings that it owns. These improvements have resulted in
increased energy efficiency and water conservation. Management is continuing
its improvements and has new projects in process, including further facilities
enhancements and a new recycling directive. Our review provided the
following additional ideas:

1.   Create an energy management and conservation vision at the FDIC,
2.   Foster employee awareness,
3.   Budget and measure enhancements,
4.   Plan for energy efficiency,
5.   Lease energy-efficient buildings, and
6.   Assess recycling efforts.

Management’s response to our report indicated that it is committed to develop-
ing a model Energy Management Program. Already, the Corporation has
(1) established a performance goal in its Annual Performance Plan for implemen-
tation of an Energy Conservation Program and (2) taken steps to obtain the
assistance of the Department of Energy‘s Federal Energy Management Program.



                                                         25
Investigations
Inspector’s General Statement

                                                        The Office of Investigations (OI) is
                                                        responsible for carrying out the
                                                        investigative mission of the OIG.
                                                        Staffed with agents in Washington;
Investigative Statistics                                D.C.; Atlanta; Dallas; Chicago; and
                                                        San Francisco; OI conducts investiga-
Judicial Actions                                        tions of alleged criminal or otherwise
 Arrests                                           5    prohibited activities impacting the
 Indictments/Informations                         12    FDIC and its programs. As is the
                                                        case with most OIG offices, OI
 Convictions                                       9
                                                        agents exercise full law enforcement
                                                        powers as special deputy marshals
Actions Involving FDIC Employees                        under a blanket deputation agree-
as a Result of Investigations                           ment with the Department of
 Reprimand                                         1    Justice. OI’s main focus is on investi-
 Suspensions                                       2    gating criminal activity that may
 Warnings                                          6    harm, or threaten to harm, the opera-
                                                        tions or the integrity of the FDIC and
Actions Involving FDIC Contractors                      its programs. In pursuing these
as a Result of Investigations                           cases, our goal, in part, is to bring a
                                                        halt to the fraudulent conduct under
 Debarment                                         1
                                                        investigation, protect the FDIC and
                                                        other victims from further harm, and
OIG Investigations Resulted in                          assist the FDIC in the recovery of its
 Fines of                                 $ 1,212,820   losses. Another consideration in ded-
 Restitution of                             8,328,366   icating resources to these cases is
 Monetary Recoveries of                     6,540,272   the need to pursue appropriate crimi-
Total                                   $16,081,458     nal penalties not only to punish the
                                                        offender but also to deter others
                                                        from participating in similar crimes.
Cases Referred to the
Department of Justice (U.S. Attorney)             57    Joint Efforts

Referrals to                                            The OIG works closely with U.S.
 FDIC Management                                   8    Attorneys‘ Offices throughout the
                                                        country in attempting to bring to jus-
                                                        tice individuals who have defrauded
OIG Cases Conducted Jointly with                        the FDIC. The prosecutive skills and
Other Agencies                                    47    outstanding direction provided by the
                                                        Assistant U.S. Attorneys with whom
                                                        we work are critical to our success.
                                                        The results we are reporting for the
                                                        last 6 months reflect the efforts of
                                                        U.S. Attorneys’ Offices in the District
                                                        of Massachusetts, the Northern
                                                        District of Illinois, the Southern


  Law enforcement
                                                        District of Ohio, the Southern District
                                                        of West Virginia, the Middle District
                                                        of North Carolina, the Northern
                                                        District of Georgia, the Northern
                                                        District of Texas, and the Southern


         Justice
                                                        District of Texas.
                                                        The support and cooperation among
                                                        other law enforcement agencies are
                                                        also key ingredients for success in




                                             26
the investigative community. We fre-                                                            These charges stem from an investi-
quently “partner” with the Federal                                                              gation by a multi-agency task force
Bureau of Investigation (FBI), Internal                                                         comprised of Special Agents of the
Revenue Service (IRS), Secret                                                                   FBI, FDIC OIG, IRS, U.S. Postal
Service, and other law enforcement                                                              Inspection Service, and U.S.
agencies in conducting investigations                                                           Department of the Treasury OIG.
of joint interest.                                                                              Among many issues being
                                                                                                addressed by the task force is miss-
Results                                                                                         ing bank records. Prior to the indict-
                                                                                                ment, investigators executed a
Over the last 6 months, OI opened                                                               search warrant on property owned
37 new cases and closed 32 cases,                                                               by the former senior executive vice
leaving 162 cases underway at the                                                               president and her husband. The
end of the period. Our work during                                                              search resulted in the recovery of
the period led to either indictments                                                            buried bank records that filled 370
or criminal charges against 12 indi-                                                            file boxes.
viduals. Nine defendants were con-
victed during the period, and criminal                                                          Two Former Executives of Famed
charges remained pending against                                                                Kentucky Horse Farm Found Guilty
12 individuals as of the end of the                                                             of Offering $1.1 Million in Bribes to
reporting period. Also, fines, restitu-                                                         Bank Director
tion, and monetary recoveries stem-                                                             The former president and the former
ming from our cases totaled over                                                                chief financial officer of Calumet
$16 million. Our investigations involv-                                                         Farm, a famed Lexington, Kentucky,
ing FDIC employees resulted in sus-                                                             thoroughbred horse farm, were
pensions of two employees, the rep-                                                             found guilty of four counts of false
rimand of one employee, and warn-                                                               statements, bribery, conspiracy, and
ings to six employees. In addition,                                                             bank fraud. The two defendants
one FDIC contractor was debarred.                                                               were convicted of offering $1.1 mil-
The following are highlights of some                                                            lion in bribes to the vice chairman
of the results from our investigative                                                           and a director of First City
activity over the last 6 months.                                                                Bancorporation, a failed financial insti-
                                                                                                tution, to obtain $65 million in loans
Fraud Arising at or Impacting
                                                                                                for the financially troubled farm. The
Financial Institutions
                                                                                                charges against the two defendants
                                                                                                stemmed from an ongoing joint
Two Bank Officials Charged with
                                                                                                FBI/OIG investigation into the bank’s
Conspiracy to Obstruct a Bank                                                                   failure. The U.S. Attorney’s Office for
Examination                                                                                     the Southern District of Texas prose-
The former senior executive vice                                                                cuted the case.
president of the now defunct First
National Bank of Keystone, Keystone,                                                            As previously reported, an indictment
West Virginia, and the former execu-                                                            of the two defendants was returned
tive vice president of Keystone                                                                 by a Houston, Texas, grand jury in
Mortgage Company, a subsidiary of                                                               December 1998 but not unsealed
the bank, were indicted on charges                                                              until March 1999. The indictment
of Conspiracy to Corruptly Obstruct                                                             alleged, among other things, that the
and Attempt to Obstruct the                                                                     vice chairman of the bank used his
Examination of a Financial Institution     FDIC OIG is part of a multi-agency task force that
                                                                                                position to facilitate the approval of
by an Agency of the United States.         recovered buried bank records related to the now     disbursements of loan proceeds and
The charges are based on alleged           defunct First National Bank of Keystone, Keystone,   extensions of credit to Calumet and
                                           West Virginia.
actions by the officials taken after the                                                        to frustrate and impede bank offi-
Office of the Comptroller of the                                                                cers’ attempts to collect from the
Currency began an examination of                                                                farm. The vice chairman of the bank
the bank that culminated in its clo-                                                            continues serving a 22-year prison
sure on September 1, 1999.                                                                      sentence that was imposed after




                                                                  27
two federal trials in 1994 and 1996.        to have submitted loan applications       pany, which became indebted to
Also prosecuted as part of this case        to the bank branch employee that          the FDIC on a nonperforming note
was a stable groom who worked for           contained certain false information       that the Corporation acquired as a
Calumet farms. The stable groom             including personal information            result of the failure of the Bank of
was convicted and sentenced to 5            regarding the applicants, credit refer-   New England.
months in prison for making false           ences, and social security numbers.
                                                                                      Among the false statements the
statements to a Houston federal             The defendants are also charged
                                                                                      defendant is alleged to have made
grand jury investigating whether the        with falsely inflating the purchase
                                                                                      were that he (1) owned his home
famous thoroughbred stallion, Alydar,       price of automobiles for the purpose
                                                                                      when, in fact, he had transferred his
was intentionally injured so the horse      of deceiving the bank about the
                                                                                      interest in his home to his wife;
farm could collect over $36 million in      amount of the down payment, if any,
                                                                                      (2) had salary, bonuses, and commis-
insurance proceeds.                         made by applicants. In fact, a major-
                                                                                      sions of $280,000 in 1989 when, in
                                            ity of the cars were actually 100-per-
Three Dallas, Texas, Residents                                                        fact, he had no such income that
                                            cent financed. Additionally, the three
Indicted for Conspiracy to Defraud                                                    year; and (3) had received no divi-
                                            defendants are charged with retain-
Comerica Bank                                                                         dends from a partnership in the prior
                                            ing down payments for personal use
On February 24, 2000, a federal                                                       2 years when, in fact, he had
                                            in cases where such payments were,
grand jury in Dallas, Texas, returned                                                 received over $11,000 in dividends
                                            in fact, made by loan applicants.
an indictment against three Dallas                                                    during that period.
residents for conspiracy to defraud         Georgia Resident Pleads Guilty to
                                                                                      The defendant is also charged with
the FDIC-insured Comerica Bank.             Bank Fraud for Depositing                 concealing and failing to disclose that
Two of the individuals were                 Counterfeit Checks Totaling $190,000      he had (1) withdrawn over $200,000
employed as salesmen at an automo-          and Later Withdrawing the Funds           from the accounts of the hotel in
bile dealership, and the third was          Following an indictment on                weekly checks of $1,500 payable to
employed at a branch of Comerica            November 26, 1999, a resident of          the trust; (2) deposited over $160,000
Bank. This case was jointly investi-        Georgia and a customer of Security        in tax refunds and bonus checks into
gated by the OIG and the FBI and is         State Bank, an open FDIC-insured          an investment account in his wife's
being prosecuted by the U.S.                bank in Canton, Georgia, pleaded          name; (3) borrowed $300,000 from a
Attorney’s Office for the Northern          guilty to bank fraud on March 3,          personal friend; and (4) borrowed,
District of Texas.                          2000. Aided and abetted by others,        with a partner, $300,000 from
The indictment charges that the             the defendant had deposited two           another friend in connection with the
three defendants conspired to               $95,000 checks that he knew to be         purchase of a mall.
defraud Comerica Bank by both caus-         counterfeit into an account at the
                                            bank and later withdrew the funds.        This case was jointly investigated by
ing to be submitted and submitting                                                    the FBI and OIG and is being prose-
false information to influence the          This case was jointly investigated by
                                            the OIG and FBI and is being prose-       cuted by the U.S. Attorney’s Office of
bank to approve car loans under the                                                   the District of Massachusetts.
Community Reinvestment Act                  cuted by the U.S. Attorney‘s Office
Automobile Purchase Loan Program.           for the Northern District of Georgia.     Three North Carolina Men Plead
The program was instituted to help          Management and Disposition                Guilty and Are Ordered to Pay Fines
low to moderate income individuals          of Assets of Failed Financial             and Restitution Totaling over
with little or no established credit his-   Institutions                              $7.5 Million
tories obtain automobile financing.                                                   Following their entry of plea agree-
The three defendants are alleged to         Individual Charged with Making            ments with the U.S. Attorney for the
have falsely represented loan appli-        False Statements and Material             Middle District of North Carolina in
cants’ social security numbers to           Omissions to Banks and the FDIC           November 1999, three North Carolina
Comerica Bank and supplied fictitious       An individual was charged with mak-       developers were sentenced to pay
credit references with the intent to        ing false statements and material         fines totaling $212,820 and restitution
deceive the bank concerning the             omissions to five banks and the FDIC      totaling $7,243,220. Payment of the
applicants’ credit histories. As            in connection with various loans.         restitution was split with $1.5 million
described in the indictment, the car        One of the loans was a $6.25 million      going to the FDIC and the remaining
salesmen told individuals with poor         loan from the Bank of New England         $5.7 million going to the IRS to resolve
credit histories that they could obtain     to finance the purchase of a hotel in     tax problems. Additionally, each of the
financing from Comerica Bank if they        Salem, Massachusetts. The defen-          three was sentenced to 24 months’
would purchase automobiles through          dant and another individual are own-      probation and ordered to perform 400
them. The salesmen also are alleged         ers of the hotel through a trust com-     hours of community service.




                                                           28
The plea agreement was the result         OIG, and the case is being prose-          $1 million after earlier pleading guilty
of a joint FDIC/IRS investigation into    cuted by the U.S. Attorney‘s Office        to charges of embezzlement and aid-
allegations that the developers com-      for the Southern District of Ohio.         ing and abetting. The former presi-
mitted tax fraud and provided false                                                  dent at Advance Bank, F.S.B., a
                                          The defendant was a loan servicer
financial statements to the former                                                   wholly owned subsidiary of Advance
                                          for a portfolio of mortgage loans
Resolution Trust Corporation (RTC)                                                   Bancorp, Inc., was sentenced to
                                          made by the former Alpine Savings,
and an RTC contractor in connection                                                  25 months of incarceration and
                                          Steamboat Springs, Colorado. Prior
with two nonperforming loans the                                                     36 months of probation and ordered
                                          to being placed into receivership by
three had with a failed thrift. Our                                                  to make restitution of $1 million as a
                                          the RTC in 1990, Alpine had sold
investigation found the developers                                                   result of her guilty plea on charges of
                                          90 percent of its ownership in the
were guarantors on two loans total-                                                  mail fraud and filing a false federal
                                          loans to six FDIC-insured financial
ing $15.9 million from Empire of                                                     income tax return.
                                          institutions but retained the remain-
America Realty Funding Corporation,       ing 10 percent of ownership, includ-       As previously reported, some of the
a subsidiary of Empire of America         ing servicing rights. Following            charges in this case resulted from an
Federal Savings Bank, Buffalo, New        Alpine’s receivership, the defendant       investigation that we conducted in
York. The loans originated in 1988        collected monthly mortgage pay-            concert with the FBI regarding fraud-
and 1989 and were to be used for          ments directly from borrowers; he          ulent conduct against the former
the construction of two apartment         forwarded 90 percent of the pay-           RTC. Advance Bank was organized in
complexes.                                ments to the six financial institutions    May 1990 to acquire the deposits
In 1990, the RTC was appointed con-       and the remaining 10 percent to First      and selected assets of Concordia
servator of Empire and acquired the       Nationwide Mortgage, a master ser-         Federal Bank for Savings from the
two delinquent loans. In early 1991,      vicer for the FDIC, and provided           then-RTC. Advance Bank previously
the developers requested loan modi-       reports to all seven entities.             was fined $1.5 million and ordered to
fications that the RTC denied. In late                                               pay $500,000 in restitution.
                                          Relative to 15 mortgage loans, the
1991, the developers repurchased          investigation disclosed that the           FDIC Debtors Pay Off FDIC
their loans for $9 million from the       defendant failed to forward $693,869       Indebtedness
RTC using a “straw buyer,” which is       in loan payoff proceeds he had col-        Following the initiation of an OIG
a person or party used to purchase        lected. He covered the theft by con-       investigation and the issuance of OIG
property for another to conceal the       tinuing to submit monthly payments         subpoenas for records, two FDIC
identity of the real purchaser. The       and reports to the 90-percent own-         debtors who had previously claimed
sale resulted in a loss of over $6 mil-   ers as if the loans that had been paid     to be insolvent made payments to
lion. The developers subsequently         off were still active. The OIG investi-    the FDIC for the full principal balance
sold the apartment complexes at a         gated the loans at five of the finan-      of their indebtedness, which totaled
profit of $8 million and failed to        cial institutions; the FBI investigated    over $6.5 million. The investigation
report the gain to the IRS.               the loans at the sixth. Although all six   regarding the financial information
The investigation revealed that the       institutions are located in different      previously submitted by the debtors
developers submitted false financial      judicial districts and the investigation   is continuing.
statements to the RTC that the RTC        was coordinated with the U.S.
                                          Attorneys‘ Offices of those districts,     Other Cases
contractor relied on as a basis for its
decision not to pursue the develop-       it was agreed that the defendant
                                          would be charged only in Ohio.             Texas Architect Sentenced for Theft
ers’ guaranty. The financial state-
ments represented that the develop-                                                  of Public Funds–FDIC Check of over
                                          Final Sentencing of Subjects in Bank       $85,000
ers’ net worth was insufficient to
                                          Fraud Case                                 A Houston, Texas, architect/interior
recover on the guaranties.
                                          During this period two principals          designer was sentenced for theft
Former FDIC Loan Servicer Pleads          related to Advance Bank, F.S.B.,           of public funds–specifically, an
Guilty to Bank Fraud and Agrees to        Lansing, Illinois, were sentenced,         FDIC check for $85,146. The defen-
Make Restitution of Almost $700,000       bringing to a conclusion an investiga-     dant was sentenced to 5 years of
On January 13, 2000, a former loan        tion and prosecution that we previ-        probation and ordered to pay resti-
servicer for the FDIC pleaded guilty      ously reported when they were origi-       tution of $85,146 and a special
to one count of bank fraud and            nally charged in 1998. The former          assessment of $100. This case was
agreed to make restitution of             chairman of the board at Advance           investigated by the OIG and prose-
$693,869. The action was the result       Bancorp, Inc., was sentenced to            cuted by the U.S. Attorney’s Office
of an investigation initiated by the      18 months of incarceration,                for the Southern District of Texas,
                                          24 months of probation, and fined          Houston Division.




                                                           29
The January 2000 sentencing fol-
lowed an indictment in April 1999
and guilty plea in November 1999.
According to the indictment, the
check in question was intended to
be a settlement check from the
Corporation to an individual. The
check was drawn on an FDIC
account by the Federal Home Loan
Bank and made payable to the indi-
vidual’s company. The OIG investiga-
tion was prompted by allegations
that the defendant, after moving into
the individual’s former business
premises, intercepted the check,
altered its issuance date, and
deposited it into an account he had
established at NationsBank. A prelim-
inary review revealed that he then
removed the funds from the account
through a series of withdrawals.




                                        30
     Keystone, West Virginia
     Arial view of location where recovered bank
     records were buried. Watch for more investigative
     developments related to the First National Bank of
     Keystone’s failure in future semiannual reports.




31
OIG Organization

During this reporting period, the OIG     OIG Continues Self-                     other potential areas for evaluations.
focused on strategies to better align     Assessment and the                      In addition, a new System for
our work with the Corporation’s prior-    Process of Change                       Tracking Audits and Reports was
ities. To this end we began develop-                                              fully implemented to improve our
ing a long-range audit strategy that      The OIG remains committed to con-       ability to track audit progress and
will result in audits better linked to    tinuously examining our products,       meet project deadlines. By instituting
the Corporation’s major program           services, processes, operations,        these new tracking and communica-
goals and continued an ongoing            and working relationships. During       tion vehicles, we hope to initiate a
period of self-assessment of our          this period we evaluated our            dialogue and improve relationships
internal work processes, products,        progress in meeting action plans        across the Corporation regarding our
and working relationships. We also        that were based on issues we iden-      commitment to timeliness and
began new initiatives to develop our      tified through earlier customer sur-    improving the overall quality of the
human capital to ensure that we will      veys of corporate officials (i.e.,      audit and evaluation processes.
have well trained resources with the      adding value to the Corporation,        In response to our earlier surveys,
diversity of skills needed to keep        defining success and accountability,    we also increased our communica-
pace with the changing corporate          building trust, improving communi-      tive efforts to clarify the OIG role and
and industry environment. Further,        cation, clarifying the OIG’s role and   mission as well as our planned work.
we are ensuring we have the tech-         message, and increasing flexibility).   During this reporting period, the
nological tools necessary to achieve      We then resurveyed our corporate        Inspector General met with top FDIC
our goals. Declaring the OIG to be a      customers in January 2000 to            officials on several occasions. Other
“learning organization” and adopting      assess the impact of our actions on     OIG executives and managers have
a continuous process of self-assess-      customer satisfaction.                  also continued meeting with FDIC
ment and change provides the flexi-
                                          Action Plans                            division heads to explain the OIG’s
bility needed to assist the
                                          Based on their action plans, several    mission and approach and to gain
Corporation in addressing its priori-
                                          offices further pursued customer-ori-   input for future work. OIG staff met
ties and in confronting emerging
                                          ented initiatives. The OIG‘s Counsel    with the FDIC’s Chief Financial
risks and issues brought on by a
                                          resurveyed OIG staff to ensure that     Officer to discuss our audit plan and
rapidly changing industry.
                                          services provided fully met the         with other FDIC division heads to fur-
                                          needs of the staff. The Office of       ther discuss how our audit plan
Aligning the OIG with                                                             relates to each division. Along with
                                          Audits and Office of Congressional
Corporate Priorities                                                              the Director of the Office of Internal
                                          Relations and Evaluations made sev-
                                          eral changes in work processes to       Control Management (OICM), the
In an effort to more closely align the                                            Deputy Inspector General for Audits
                                          improve effectiveness, client satis-
OIG’s work with corporate concerns                                                also recently met with contracting
                                          faction, and communication. These
and priorities, we have begun to criti-                                           officers throughout the Corporation.
                                          changes included implementing the
cally reexamine our audit universe                                                He provided both a historical per-
                                          use of client satisfaction feedback
and reorganize our work where nec-                                                spective on the OIG’s work in the
                                          instruments. Feedback forms are
essary. The OIG‘s 2000 Audit Plan                                                 contracting area and a focus on
                                          now provided to the auditee or evalu-
currently targets seven distinct audit                                            ongoing projects and current issues
                                          atee at the beginning of the survey
areas. We are exploring a possible                                                that the OIG believes warrant con-
                                          or audit/evaluation engagement and
realignment of those audit areas and                                              tracting officers‘ attention and over-
                                          with the final audit or evaluation
resources to better link our efforts to                                           sight. We welcome these opportuni-
                                          reports. The auditee is asked to rate
the FDIC‘s stated goals and objec-                                                ties to clarify and communicate our
                                          the OIG on the conduct of the
tives. The resulting long-range plan-                                             role and the work we plan to do with
                                          reviews and the quality of reports
ning document will assist us in bet-                                              the Corporation. In this manner we
                                          and to offer comments and sugges-
ter allocating our audit resources to                                             hope to ensure that our work is rele-
                                          tions so that we can improve and
provide optimum coverage of the                                                   vant and adds value to how the FDIC
                                          strengthen our performance in the
Corporation‘s most important pro-                                                 does its business.
                                          future. Preliminary response to using
grams and functions.
                                          the feedback instrument has been        Resurvey of Corporate
                                          positive. To ensure we meet specific    Customers
                                          corporate needs, the Office of          Following several months of making
                                          Congressional Relations and             changes based on our assessments
                                          Evaluations is expanding the function   and action plans, we resurveyed our
                                          of entrance conferences to identify     corporate customers in January 2000




                                                          32
to determine the current level of sat-   mentoring programs, and new               OIG Internal Activities
isfaction with OIG operations and        leader, and aspiring leader programs,
communication. The resurvey              and through our intern program, sev-      Highlights of the OIG‘s internal activi-
revealed that the OIG’s efforts over     eral interns are working part-time.       ties during the reporting period
the last months to partner and           We are also seeking to establish          include the following:
improve its communications with          more developmental opportunities
                                                                                   • Completed second external
the FDIC have paid rich dividends.       for our administrative professional
                                                                                     customer survey in January 2000
OIG customers reported a greater         staff. Further, we are examining how
                                                                                     regarding satisfaction with OIG
sense of collaboration and partner-      our resources are allocated and have
                                                                                     operations and processes.
ship with the OIG and a better           initiated a study to examine our train-
understanding of the mission, role,      ing processes and needs. We are           • Monitored OIG computer systems,
and function of the OIG. We attrib-      also using available technology to          facsimile machines, and other
uted these improvements directly to      both develop new tools and enhance          equipment during the FDIC’s Y2K
the increased opportunities to com-      existing tools to help us do our work.      “rollover” weekend.
municate the OIG’s role and mission      Also, during this period we used our      • Submitted Fiscal Year 2001 budget
and explain how our work interfaces      study of OIG workplace diversity            to the House and Senate
with the Corporation’s priorities. The   issues and the Corporation’s diversity      Subcommittees on VA, HUD, and
resurvey also served as a vehicle to     plan to develop an OIG diversity            Independent Agencies, Committee
identify new issues as well as old       statement and a related action plan.        on Appropriations.
issues that need further attention.      In the OIG’s diversity statement, the
The OIG will continue to use this                                                  • Issued a summary report on the
                                         Inspector General endorsed the cor-         first OIG-wide conference. As
survey process to help identify areas    porate plan and supported the
for change and improvement in its                                                    reported in our last semiannual
                                         Chairman’s initiative for enhancing         report, the conference theme was
operations and communications with       the diverse nature of our workforce
the Corporation.                                                                     OIG 2000–Destination: Excellence.
                                         through the various goals established       Building on the OIG’s Learning
OIG Attention to Human                   under the FDIC‘s Diversity Strategic        Organization initiative, the confer-
Capital                                  Plan. Further, he stated a full com-        ence focused on the OIG’s
                                         mitment to implementing within the          improvement plans for its work
Just as we are highlighting to the       OIG the Corporation’s strategies or         products, work processes, and
Corporation the importance of its        similar strategies, where appropriate,      interpersonal relations.
human capital, we are making similar     for achieving the FDIC‘s vision and
efforts to examine and value our         mission on diversity. The OIG             • Launched OIG Diversity Web site
own human capital. We are looking        Diversity Action Plan relates each          to articulate and make readily
at how best to develop and use our       OIG action item to both the related         accessible OIG views of diversity
staff resources. In addition, we are     FDIC Diversity Plan strategic area          and to call attention to various
working on a number of initiatives to    and four issues resulting from con-         other diversity issues. The page is
ensure we have the right mix of staff    cerns identified in our own diversity       linked to the Corporation’s Web
and expertise necessary to have a        study, which was sent to the House          page and other diversity sites.
high quality OIG and to respond to a     Appropriations Subcommittee on VA,        • Issued the OIG’s 1999
rapidly changing banking environ-        HUD, and Independent Agencies               Performance Report.
ment. We plan to focus even more         during our last semiannual reporting
on the issue of human capital as we      period. These issues include: (1)         • Issued the OIG’s Annual
go forward with our self-assessment      developing strategies to overcome           Performance Plan and Internal
work related to our Learning             racial and gender imbalances where          Resource Management
Organization initiative.                 they exist, (2) fostering opportunities     Performance Plan for 2000, which
                                         to obtain and share knowledge and           contains 35 specific annual goals
A pilot program has been imple-          increase sensitivity about diverse          that directly link to the OIG’s four
mented to develop OIG staff through      groups, (3) working toward the con-         strategic goals and related objec-
inter-OIG office rotation. These rota-   sistent application of standards, and       tives. The goals focus on the core
tions expose OIG staff to varying        (4) improving communication among           audit, evaluation, and investigative
approaches to reviews and provide        OIG staff.                                  activities; professional advisory ser-
maximum flexibility to use resources                                                 vices; and external communica-
in the areas needed. In addition, sev-                                               tions with the Chairman, the
eral staff have been nominated or                                                    Congress, and other stakeholders.
named to participate in the FDIC’s




                                                         33
• Issued the OIG 2000 Audit Plan,         feedback sessions with                • Continued Electronic Workpaper
  outlining planned audits in seven       supervisors, development of             project to assist us in more
  strategic areas: Supervision and        individual development plans, and       efficient and effective maintenance
  Consumer Affairs; Resolutions and       possible career development             and use of workpapers.
  Receiverships; Award                    opportunities.
                                                                                • Issued OIG-wide awards policy.
  Administration, and Oversight of
                                        • Implemented use of feedback
  Contracts and Agreements;                                                     • The Corporation honored several
                                          mechanisms to gain input on audit
  Financial Accountability and                                                    OIG staff for Y2K contributions.
                                          processes and products from the
  Internal Controls; Financial and                                              • Coordinated with the Department
                                          auditee and evaluatee during OIG
  Management Information                                                          of the Treasury and the Federal
                                          audits and evaluations.
  Systems; Deposit Insurance; and                                                 Reserve Board OIGs to discuss
  Corporate Activities and              • The Inspector General initiated
                                                                                  common areas of interest for year
  Administration. In formulating the      multiple meetings with senior
                                                                                  2000 audits as well as specific
  plan, we solicited suggestions          FDIC officials to increase corpo-
                                                                                  audits either planned or in
  from the Audit Committee and            rate understanding of the OIG’s
                                                                                  progress. Areas of common
  each division and office head.          role and mission.
                                                                                  interest included implementation
• Completed a quality assurance         • OIG executives and managers             of the Bank Secrecy Act, under-
  review of the Office of                 initiated meetings with corporate       writing practices, Government
  Investigations and initiated a          officials to discuss the OIG’s 2000     Performance and Results Act
  quality assurance review of the         Audit Plan and other related            reporting, and Community
  Office of Management and Policy.        reviews.                                Reinvestment Act examinations.
• Coordinated the preparation and       • In November 1999, OIG staff           • Office of Audits staff coordinated
  revision of management control          attended the Federal Audit              with General Accounting Office
  plans for the OIG’s accountability      Executive Council’s annual              staff to publish an article in the
  units under the Corporation’s           conference to exchange ideas            PCIE Journal of Public Inquiry on
  internal control program.               relating to audit issues in the         their unique partnership in conduct-
                                          millennium with senior audit            ing the FDIC Financial Statement
• Continued OIG participation in
                                          executives from the Inspector           Audit work.
  interagency Government
                                          General community and elsewhere
  Performance and Results Act                                                   OIG Coordination with
                                          in the federal government.
  Interest Groups sponsored by the                                              and Assistance to FDIC
  President‘s Council on Integrity      • Attended the 2000 Joint Financial     Management
  and Efficiency (PCIE) and the U.S.      Management Improvement
  Office of Personnel Management          Program annual conference,            Coordinating with management and
  to share ideas and best practices       which addressed various               providing assistance are important
  on Results Act implementation.          challenges facing the federal         priorities for the OIG. Our work over
                                          financial management community,       the past 6-month period in this
• Implemented pilot rotational                                                  regard is as follows:
                                          including responding to ever-
  assignments for audit and
                                          changing technology, developing a     • Participated on a task force with
  evaluation staff.
                                          new generation of government            the Division of Administration and
• Initiated an assessment of the          managers, and investing in              the Division of Information
  changing role of OIG administrative     human capital.                          Resources Management (DIRM) to
  support staff, which will lead to                                               help negotiate option year pricing




                                                        34
  with MCI and assess whether a `           the OIG’s responsibility to detect     • Participated on corporate working
  particular General Services               and prevent waste, fraud, and            groups, such as the Chairman‘s
  Administration contracting vehicle        abuse relating to the programs and       Diversity Council and the
  would be appropriate for the              operations of the FDIC, while            Alternative Dispute Resolution
  Corporation’s future telecommuni-         respecting the regulatory functions      Steering Committee.
  cation needs. The task force vali-        of DOS. Since October 1999, the
  dated the FDIC’s contract decision.                                              • Met with DOS and Division of
                                            OIG has been meeting with DOS
                                                                                     Resolutions and Receiverships
• Continued comprehensive, proac-           to establish communications and
                                                                                     (DRR) officials to provide updates
  tive monitoring and advisory ser-         the coordination of procedures.
                                                                                     and share necessary information
  vices for all phases of the             • In December 1999, participated in        pertaining to our ongoing investiga-
  Corporation’s Y2K activities, both        the DOS Regional Director/Assistant      tion of the failure of the First
  internal and external, to help            Regional Director Conference at          National Bank of Keystone.
  ensure a successful transition to         Virginia Square, where we dis-           As a part of these briefings, OIG
  Year 2000.                                cussed important issues of mutual        agents shared their observations
• OIG Y2K staff were recognized in          interest, including: providing an        from the Keystone investigation
  DIRM’s 1999 “Yearbook,” which is          overview of our audit activities in      relating to potential indicators of
  a publication DIRM prepares each          DOS and presenting our new audit         fraud and obstruction,for future
  year to highlight its major accom-        engagement agreements and feed-          reference during FDIC examina-
  plishments and goals. DIRM                back forms. The Counsel to the           tions and closings.
  recognized that the cooperative           Inspector General and staff from the
                                                                                   • Continued our efforts to coordinate
  effort between the OIG audit team         Office of Investigations, DOS, and
                                                                                     with DRR in connection with our
  and DIRM served to ensure the             the Legal Division addressed the
                                                                                     criminal investigations of fraud and
  successful completion of the              joint memorandum, discussed
                                                                                     concealment of assets involving
  FDIC’s Internal Year 2000 Project         above, regarding OIG investigations
                                                                                     court-ordered restitution and other
  with no corporate impact when the         of open bank activities.
                                                                                     debts that are owed to the FDIC as
  year 2000 arrived. DIRM also            • Initiated a follow-up review with        a result of the takeover of failed
  recognized the long-term positive         OICM to an issue reported in 1998        banks and thrifts. Since October
  benefits resulting from the project.      on the Office of Diversity and           1999, opened 13 new cases in
• Participated in the FDIC’s Y2K            Economic Opportunity’s (ODEO)            coordination with DRR involving a
  rollover activities.                      complaint processing. The review         total of over $87 million in out-
                                            will assist the Corporation in           standing restitution orders and
• In October 1999, issued joint             reviewing issues presented in past       other types of debt.
  memorandum with the Division of           Chief Financial Officer Act reports
  Supervision (DOS) and Legal                                                      • Initiated an annual review of the
                                            and determining the progress
  Division that establishes a broad                                                  Corporation’s Internal Control and
                                            made by ODEO in taking
  framework within which the OIG                                                     Risk Management Program.
                                            corrective actions.
  and DOS will cooperate in the                                                    • Participated with OICM in a joint
  OIG’s current and future investiga-     • Provided advisory comments to
                                                                                     presentation to contracting officers
  tions of certain criminal activity in     management on the FDIC’s 1999
                                                                                     sharing views on contracting risks
  open financial institutions regulated     Program Performance Report and
                                                                                     and proper controls to guard
  by the FDIC. The memorandum               2000 Performance Plan.
                                                                                     against those risks.
  ensures OIG access to the
  information necessary to discharge




                                                           35
The OIG played a major part in the following activi-
ties in support of the Inspector General‘s role as Vice
Chair of the President’s Council on Integrity and
Efficiency (PCIE):

• Directed the development of a comprehensive Strategic Plan containing
  goals, objectives, and strategies for the work of the PCIE and the Executive
  Council on Integrity and Efficiency (ECIE).
• Coordinated a working group to redesign the Inspector General Web site to
  include more PCIE/ECIE-related business information.
• Attended the Inspectors General retreat addressing “The Evolving Role of the
  Inspector General in the New Millennium.”
• Issued reports or surveys related to Non-tax Delinquent Debt, Inspections
  and Evaluations Offices within the Inspector General community, and Audit
  and Management Best Practices.
• Coordinated PCIE responses to issues such as the Webster Report on Law
  Enforcement and the Association of Government Accountants‘ Oversight
  Survey.
• Provided comments and information on issues affecting the PCIE/ECIE such
  as law enforcement authority, training academy funding and support,
  independence of OIGs, and other matters.
• Submitted requests, coordinated meetings, and obtained information from
  the OIGs to respond to several congressional requests for information.




                                                         36
Table 1:
Significant OIG Achievements
October 1999 – March 2000

Audit Reports Issued                                       19
                                                                   *These memorandums and
Audit-Related Memorandums Issued *                         11      other correspondence
Evaluation Reports Issued                                   4      relate to OIG work that did
Evaluation-Related Correspondence                                  not result in formally issued
                                                                   audit or evaluation reports.
 Issued *                                                   4
Questioned Costs and Funds
 Put to Better Use from Audit
 and Evaluation Reports                          $3.5 million
Congressional Testimony
 Submitted for the Record                                   2
Investigations Opened                                      37
Investigations Closed                                      32
OIG Subpoenas Issued                                       19
Convictions                                                 9
Fines, Restitution, and
 Monetary Recoveries                             $16 million
Hotline Allegations Referred                              22
Allegations Substantiated                                 15
Allegations Closed                                        36
Proposed or Existing Regulations
 and Legislation Reviewed                                   9
Proposed FDIC Policies Reviewed                            12
Responses to Requests and Appeals



                                                  Table 1
 Under the Freedom of Information
 Act and Privacy Act                                       18




                                     Table 2:
                                     Nonmonetary Recommendations
                                     April 1997 – September 1997                                   110
                                     October 1997 – March 1998                                      52
                                     April 1998 – September 1998                                    77
                                     October 1998 – March 1999                                     133
                                     April 1999 – September 1999                                    66


                Table 2
                                     October 1999 – March 2000                                      68




                                                      37
Table 3:
OIG Review of Proposed or Existing Legislation and Regulations
October 1, 1999 – March 31, 2000
OIG Counsel has monitored the progress of major banking legislation, specifically, the Gramm-
Leach-Bliley Act, which was enacted November 12, 1999. This law has created the most
sweeping changes in banking law since the 1930s. Specifically, the law allows affiliations
between insured banks and any financial company, including securities and insurance firms,
in new types of bank holding companies, known as “financial holding companies.” In addition,
the Act requires financial institutions to establish privacy policies to protect the confidentiality
of customer information. Counsel’s office convened a task group within the OIG to review the
legislation and any regulatory initiatives associated with the Act. The Office of Counsel
expects to review numerous regulatory changes as a result of this legislation.
OIG Counsel reviewed and commented upon the following legislation and regulations:
Legislation
S. 1993 –    Government Information Security Act of 1999
H.R. 1827 – Government Waste Corrections Act of 1999
H.R. 436 – Government Waste, Fraud, and Error Reduction Act of 1999
H.R. 3374 – Proposed; would strengthen the FDIC‘s ability to monitor and assess risk in
            financial institutions for which the FDIC is not the primary federal regulator.
Draft –      Common Passenger Carrier Use Efficiency Act of 2000
Draft –
Regulations
             Inspector General Law Enforcement Authorities


Part 325 – Recourse and Direct Credit Substitutes
                                                                                 Table 3
Part 332 – Privacy of Consumer Financial Information
Note:       OIG Counsel also reviewed a draft Statement of Policy on Applications for Deposit
            Insurance. The policy was later issued as a General Counsel’s opinion.




                                                          Figure 1: Products Issued and Investigations Closed
                                                                                                                        200
                                                                                                                        100
                                      Legend
                                                                                                                        160
                                  •   Oct 97–Mar 98
                                                                                                                         80
                                  •   Apr 98–Sep 98
                                                                                                                        120
                                  •   Oct 98–Mar 99
                                                                                                                         60
                                  •   Apr 99–Sep 99*
                                                                                                                         80
                                  •   Oct 99–Mar 00*
                                                                                                                         40
                                                                                                                         40
                      * Includes audit- and evaluation-                                                                  20
                      related correspondence.                                                                             0



                               Figure 1
                                                                       Audits and Evaluations          Investigations




                                                                     38
                    Figure 2: Questioned Costs/Funds Put to Better Use (in millions)
                                                                                            200
                                                                                             25
    Legend
                                                                                            160
•   Oct 97–Mar 98
                                                                                             20
•   Apr 98–Sep 98
                                                                                            120
•   Oct 98–Mar 99
                                                                                             15
•   Apr 99–Sep 99
                                                                                             80
•   Oct 99–Mar 00
                                                                                             10
                                                                                             40
                                                                                              5
                                                                                              0



Figure 2
                                  Audits and Evaluations




                                                  Figure 3: Fines, Restitution, and Monetary Recoveries Resulting from
                                                            OIG Investigations (in millions)
                                                                                                                         200
                                                                                                                          25
                                  Legend
                                                                                                                         160
                              •   Oct 97–Mar 98
                                                                                                                          20
                              •   Apr 98–Sep 98
                                                                                                                         120
                              •   Oct 98–Mar 99
                                                                                                                          15
                              •   Apr 99–Sep 99
                                                                                                                          80
                              •   Oct 99–Mar 00
                                                                                                                          10
                                                                                                                          40
                                                                                                                           5



                      Figure 3
                                                                                                                           0




                                                              39
 OIG 1999 Performance Report

         Introduction                                                       41




Overview
             Nature and Purpose of Annual Performance Report
             Relationship to FDIC’s Annual Program Performance Report
             Relationship to OIG’s Semiannual Report to the Congress
         Statistical Summary of Performance Against Annual Goals            42

         Inspector General’s Overall Assessment of Performance              42

         What Next?                                                         43

         Performance by Strategic Objective Areas                           44

             Audits, Evaluations, and Investigations Add Value
               Client Satisfaction
               Relevance
               Quality
               Impact/Results
               Productivity
               Timeliness
             OIG Professional Advice Assists the Corporation

               Emerging Issues and Task Forces
               Advising on Vulnerabilities and Risks
             OIG Communicates Effectively with Clients

               Ensuring Clients Are Informed of OIG Role, Mission, Issues

               Responsive to Inquiries and Requests

               Working with PCIE and Other Government Agencies

         Resource Management Goals                                          52

         Detail Listing of Annual Performance Goal Accomplishment           53




1999 Perform
                                             40
 OIG 1999 Performance Report

 Introduction

 Nature and Purpose of Annual Performance Report
 The Office of Inspector General has developed its own independent Strategic Plan and 1999 Annual Performance Plan.
 These plans were designed to establish goals to measure performance consistent with the principles of the
 Government Performance and Results Act (Results Act). This report presents our performance against our 1999
 Annual Performance Plan focusing on the most meaningful annual measures related to achieving our strategic goals
 and objectives.
 Relationship to FDIC’s Annual Program Performance Report
 The FDIC issued its 1999 Program Performance Report on March 30, 2000, presenting its performance against 31
 annual goals. The Corporation’s annual goals addressed the Corporation’s mission to “Contribute to the stability and
 public confidence in the nation’s financial system” in four strategic results areas: (1) Insured depositors are protected
 from loss without recourse to taxpayer funding; (2) Insured depository institutions are safe and sound; (3) Consumers’
 rights are protected and FDIC-supervised institutions invest in their communities; and (4) Recovery to creditors of
 receiverships is achieved.
 We believe that accomplishing the OIG’s strategic and annual goals and objectives contributes to the Corporation’s
 achievement of its mission and goals and objectives.
 The requirement for an annual performance report under the Results Act applies to the agency as a whole rather than
 to the OIG as a separate component. However, because of the unique mission and independent nature of Inspectors
 General under the Inspector General Act, we have prepared separate strategic and annual plans and reports, rather than
 integrating OIG goals and results into the Corporation’s plans and reports. The FDIC’s 1999 Program Performance
 Report references our annual report.
 Relationship to OIG Semiannual Report to the Congress
 Annual performance reports of OIGs prepared under the Results Act differ from semiannual reports of OIGs prepared
 under the Inspector General Act. The two reports differ with respect to the time periods covered and some of the spe-
 cific reporting requirements. However, because both types of reports present OIG accomplishments to the Congress,
 we have included the Annual Performance Report for calendar year 1999 as a separate but integral component of this
 Semiannual Report to the Congress, which covers the period October 1, 1999 to March 31, 2000. Notwithstanding
 these reporting time period differences, we believe integrating the reports to the Congress under these two statutes
 facilitates congressional consideration of the results of OIG activities.




mance Report
                                                           41
OIG 1999 Performance Report

Statistical Summary of Performance Against Annual Goals

The following table summarizes our collective performance against the annual performance goals as they relate to our
strategic goals and objectives. A detail listing of goal accomplishment containing all of the annual performance goals is
provided on page 53..

                                                                       Annual Goal Accomplishment
      Strategic Goals          Strategic Objectives                        (Number of Goals)
           Areas                      Areas                 Fully Met Substantially       Unmet           Total
                                                                       Complete
   Audits, Evaluations,        Client Satisfaction               3                                            3
   and Investigations
   Add Value                   Relevance                         3            1              1                5

                               Quality                                        2                               2

                               Impact/Results                    2            1              2                5

                               Productivity                      1            1              2                4

                               Timeliness                        1            2              2                5

   Professional Advice         Advise on Emerging
   Assists the Corporation     Issues and Vulnerabilities        4                                            4
   OIG Communicates            Inspector General
   Effectively with            Role/Activities; Inquiry
   Clients/Shareholders        Response;
                               Interagency Issues                7            2              1               10
    Total                                                        21           9              8               38
   Percentage                                                    55%        24%              21%            100%


The table indicates that we fully met 55 percent of our goals, and considering those goals substantially met, our overall
level of goal achievement is 79 percent. We recognize the considerable shortcomings of attempting to evaluate perfor-
mance based solely on a statistical summary of measures – given that all measures are not equal in weight and the
quality of measures is still evolving. Nevertheless, the numbers provide a rough overall indicator of performance.
Considering these overall indicators, along with other factors, the next section of the report presents an overall
assessment of our progress in achieving our strategic goals and objectives.


Inspector General’s Overall Assessment of Performance

In addition to a consideration of the statistical results presented in the previous section, an honest overall assessment
of performance must factor in more subjective judgments of the relative quality and weight of the measures and perfor-
mance against the measures. Conclusions based on this assessment are presented below.
Strategic Goal Area: Audit, Evaluations, and Investigations Add Value
The OIG’s strategic objectives address six components of audit, evaluation, and investigative value (client satisfaction,
relevance, quality, impact, productivity, and timeliness). In assessing our performance in these six areas,
We have made substantial progress in:
  • increasing the level of client satisfaction.




                                                            42
OIG 1999 Performance Report


We have performed reasonably well against our existing measures and goals in the following areas; however, deter-
mining appropriate measures and goals continues to be a challenge and we need to make more progress in our
ability to better measure
  • the relevance of work,
  • the quality of work, and
  • the impact of our work.
Finally, we need to substantially improve
  • our productivity and
  • the timeliness of work products.
Strategic Goal Areas: Professional Advice and Communication
We have made substantial progress in
  • providing professional advice on vulnerabilities and emerging issues and
  • improving our overall communications with clients and stakeholders.
Strategic and annual performance measurement is an evolutionary process. In this stage of the process, we realize
that many of our measures are activity- or output-oriented rather than outcome- or results-oriented. While we believe
we have made substantial progress in measuring performance, we acknowledge that our measures do not yet provide
a clear and complete picture of our progress toward achieving our strategic goals and objectives. What we now need
to do to continue this process is discussed in the next section.


What Next?

Considerable learning has occurred from the process of setting strategic and annual goals, reporting against these
goals, and stepping back to assess what it all means. Initiatives to help us continue this process include the following.
Short-term adjustment of 2000 goals. Major adjustments to significantly improve measures is not practicable for
2000. However, for our existing measures, we are reassessing specific goals and adjusting them as necessary to
make sure they continue to stretch and challenge us in the direction of improved performance and results.
Reassess the quality of performance measures and strategic alignment. For 2001 and beyond, we will continue
to work to identify better outcome-oriented measures of the value and impact of our work. Strategic goals and
objectives will be reevaluated to ensure appropriate strategic alignment. In this process, we need to consider (1) the
interrelationship of existing measures; (2) the potential for streamlining external reporting measures; (3) the potential
for improved alignment between strategic and annual plans and the related plans of the OIG operating components;
and (4) the potential for better alignment with the Corporation’s strategic plan.
Continue to work on the improvement of internal processes. A number of initiatives are underway to continue to
improve our internal operating processes with the view to improve the timeliness and productivity of our work products.
Consider adequacy of underlying measurement systems. As we develop and refine measures, we will continu-
ally reevaluate the adequacy of our underlying systems and processes to capture the necessary data and ensure
data reliability.
Build on the potential of human capital. We have underway a number of initiatives (see Resource Management
Plan section) that recognize the tremendous value and potential of human capital and the need to ensure that we
leverage this potential to improve our organizational performance. These initiatives include employee surveys, diver-
sity initiatives, training needs assessment, communication strategy development, and continuing to build a learning
organization through these and other activities.
Continue to assess the integration and consolidation of Inspector General accountability. Including this first
OIG Annual Performance Report under the Results Act as a companion report with our Semiannual Report to the




                                                          43
OIG 1999 Performance Report
 Congress serves to emphasize the value of both reports in accounting for the results of OIG work. It also represents
 an important first step in consolidating Inspector General accountability into a single document. We will continue to
 evaluate the value of this approach and other ways to make these reports more valuable to the Congress and
 Chairman of the FDIC.
 In the following section, we present performance results for each of our strategic objective areas. We also briefly
 discuss our resource management goals.


 Performance by Strategic Objective Areas

 Audits, Evaluations, and Investigations Add Value
 Client Satisfaction – Meeting Clients‘ Needs and Expectations
 All three client satisfaction goals were met.


                                              Client Satisfaction Rating

                                                                                               4
     Legend
 •   1998                                                         3.58                         3
 •   1999                                                                             3.20
                              2.73            2.74                                             2

                                                                                               1

                                                           0                 0                 0
                                     Audits             Evaluations        Investigations

              Note: No client satisfaction rating was given for evaluations and investigations in 1998.

 Follow-up client surveys of senior management executives in 1999, conducted by an independent consultant, reflected
 substantial progress and improvement from the 1998 survey for all three OIG core functions – audits, evaluations, and
 investigations. For audits, the overall quantitative rating increased, and executives with direct experience of the audit
 process reported a more collaborative relationship and regarded the audit process as adding value to their work. The
 evaluations and investigations functions received high ratings, which is particularly significant given that senior execu-
 tives were unable to rate these functions in 1998 due to a lack of knowledge or awareness of the operations.
 Client satisfaction is closely interrelated to the other five measurement components of value identified in our strategic
 objectives and has provided useful feedback on our success in the other measurement areas.
 While the client survey results were generally positive, they also show opportunities to improve the focus of our work
 on matters of the most importance to senior management (relevance) and continued opportunities to improve the time-
 liness of our work.
 Relevance – Targeting High-Risk Areas and Corporate Strategic Priorities
 Four of five goals were met or substantially met (quantitative goals were considered substantially met if performance
 was achieved within 10 percent of the goal).




                                                           44
OIG 1999 Performance Report

                     Percentage of Initiated Audits and
                  Evaluations Relating to High-Risk Areas 1

                                                                    100%

                                                                    80%
    Legend
•   1998 Target                                                     60%
•   1999 Actual   60%            64%
                                                     55%
                                       60%
                                                                    40%

                                                                    20%

                                                                     0%
                        Audits               Evaluations

                                                                             Percentage of “Relevant” Audits and
                                                                                        Evaluations 1
                                                                                                                                            100%

                                                                                                                                             80%
                                                               Legend
                                                           •   1998 Target                                 70%              73%              60%
                                                           •   1999 Actual
                                                                             75%            56%
                                                                                                                                             40%

                                                                                                                                             20%

                                                                                                                                               0%
                                                                                   Audits                       Evaluations


                  Percentage of New Investigative Cases
                       Relating to High-Risk Areas

                                                                    50%

                                                                    40%
    Legend
•   1998 Target                  40%     44%
                                                                    30%
•                                                                                    The determination of high-risk areas is made by OIG. Audits
                                                                                    1
    1999 Actual
                                                                                    were considered relevant if they were initiated under the
                                                                    20%             OIG’s Audit Plan and related directly to an FDIC strategic
                                                                                    goal or annual performance goal. Evaluations initiated dur-
                                                                                    ing 1999 were considered relevant if they related directly to
                                                                    10%             a corporate strategic objective, Chairman’s request, or con-
                                                                                    gressional inquiry.
                                                                     0%




                                                               45
OIG 1999 Performance Report

The goal for relevant audits was not met because audits in certain administrative areas (contracting and information
technology), including some audits requested by management, were not directly related to corporate strategic goals
and therefore were not counted toward the goal. We have adjusted our 2000 goal to include requested audits in the
relevance count.
Measuring the relevance and importance of our work continues to be a challenge. Client surveys have suggested that
our work needs to focus more on issues of the greatest importance to top FDIC management. As a result, we are
working with our clients more closely in the planning process. We will continue to explore ways to better measure the
relevance of our work.
Quality - Complying with Professional Standards
We have substantially met both of our quality goals.
• We initiated a program to quantitatively rate the quality of all audit and evaluation reports issued based on (1) an
  Inspector General assessment of each issued report using established quality criteria and (2) use of client feedback
  forms for each report. Quantitative quality baselines will be established and future quality targets established.
• We substantially completed an internal quality assurance review of investigative activities identifying opportunities
  to improve quality.
Determining and fairly measuring all the dimensions of quality is a substantial challenge. The components of quality are
linked to our other strategic objective areas (relevance, timeliness, client satisfaction, impact) related to adding value.
We believe our new initiatives for audits and evaluations described above move us in the right direction. We will evalu-
ate data received under these initiatives to ensure we are measuring the right things in the right manner so that we are
able to establish reasonable future targets to ensure the highest quality work. As necessary, we will adjust our mea-
sures for future years.
Impact/Results – Products Achieve Significant Impact or Results
Three of five impact goals were met or substantially met as shown in the following graphs.

                  Percentage of Recommendations Agreed
                   to by Management Within 180 Days of
                             Report Issuance
                                                                 100%

                   95%            95%   95%         100%
                                                                    80%
    Legend
•   1998 Target                                                     60%
•   1999 Actual                                                              Percentage of Closed Cases Resulting in
                                                                    40%      Criminal, Civil, or Administrative Actions

                                                                    20%
                                                                                                                          50%

                                                                    0%
                         Audits            Evaluations                                                                    40%

                                                                                        35%        34%
                                                                                                                          30%

                                                                                                                          20%
                                                               Legend
                                                           •   1998 Target                                                10%
                                                           •   1999 Actual
                                                                                                                          0%




                                                               46
OIG 1999 Performance Report

However, we did not meet two goals related to developing and testing new methodologies for measuring the impact of
our audit, evaluation, and investigative work. While we have made progress in establishing measures related to the
value and impact of our work (including those discussed under “Client Satisfaction” and “Quality”), we believe we
need to seek better ways of measuring impact.
The primary reason we have not made more progress in this area is the inherent difficulty in measuring the impact of
audit, evaluation, and investigative work as a bottom-line measure of value. These challenges include: accurately
measuring cost savings from work; quantifying the impact of various OIG prevention activities, including the value
of improved internal controls resulting from OIG work; and measuring the deterrent value of OIG investigative work.
We will continue to explore better measures of impact including research to evaluate the merits of measurement prac-
tices and models that exist in other audit and law enforcement organizations.
Although our impact measures have not been refined, we believe the results of various OIG projects, as reported in our
semiannual reports covering calendar year 1999, have demonstrated results that have had a significant positive impact
on the operations of the FDIC. The semiannual reports present various measures specified in the Inspector General
Act including questioned costs and funds put to better use; fines, restitution, and monetary recoveries resulting from
OIG investigations; and nonmonetary recommendations. (See pages 37-39 in this semiannual report.)
Productivity – Managing Resources to Maximize Productivity
Two of four productivity goals were met or substantially met.

              Audit Reports Issued                                                          Evaluation Reports Issued

                                                    100                                                                            10
                                                          Number of Reports




                                                                                                                                         Number of Reports
                                                     80                                                                             8
                                                                                                 10          8
                                                     60                                                                             6

                  79          47
                                                     40                                                                             4

                                                     20                                                                             2

                                                      0                                                                             0
     Legend   • 1999 Target        • 1999 Actual                                   Legend    • 1999 Target         • 1999 Actual

   Percentage of Preliminary Cases Closed                                            Number of Completed Cases Per
   or Converted Within 90 Days of Opening                                                     Investigator

                                                   100%                                                                            5.0

                                                   80%                                                                             4.0

                                                   60%                                                                             3.0

                65%           63%
                                                   40%                                                                             2.0
                                                                                               2.0           2.6
                                                   20%                                                                             1.0

                                                    0%                                                                             0.0
     Legend   • 1999 Target        • 1999 Actual                                   Legend    • 1999 Target         • 1999 Actual




                                                                              47
OIG 1999 Performance Report

The goals related to the number of audit and evaluation reports issued were not met. A number of circumstances con-
tributed to the level of report issuance being below the original target. For example, the scope of work exceeded origi-
nal plans in some cases. Further, several projects were communicated by memoranda rather than formal reports. If
these were counted, there were 71 audit products (within 10 percent of goal) and 13 evaluation products (exceeding
goal).
Timeliness – Issuing reports timely
Three of five timeliness goals were met or substantially met



                                                Percentage of Reports Issued Within
                                                      Established Timeframes

                                                                                                             100%


                 Legend                                                                                      80%
                                                                                      90%             81%
             •   1998 Target           80%            77%
             •   1999 Actual                                                                                 60%
                                                                80%             63%
                                                                                                             40%

                                                                                                             20%

                                                                                                              0%
                                             Audits               Evaluations               Investigations




                                       Percentage of Pending Investigative
                                           Cases Less than 2 Years Old
                                                                                      100%

                                                                                      80%

                                                                 73%
                                                                                      60%

                                                                                      40%

                                                                                      20%

                                                                                       0%
                                       Legend   • 1999 Target         • 1999 Actual




                                                            48
OIG 1999 Performance Report

As shown in the first graph on page 48, the goal that 80 percent of evaluation reports be issued within 180 days was
not met. It should be noted, however, that the median timeframe for issuing all eight evaluation reports was 162 days.
The scope of three products required more time than the 180-day target. The goal for 2000 has been revised to focus
primarily on meeting timeframes agreed upon with management.
A fifth goal (not shown in the graphs) regarding communications of investigative milestones was not met. The goal
specified notifying the Corporation 90 percent of the time within 10 working days of attainment of a major investigative
milestone. A determination was made that it was neither feasible nor necessary to measure this activity. Instead we
began new alternative practices designed to keep management informed of investigative work, including quarterly
meetings and reports with management and other communication activities. This goal will be discontinued.
Although the goal that audit reports be issued within an established 320-day timeframe was substantially met, we
believe the opportunity exists to further improve the timeliness of audits. Client surveys have expressed a continuing
concern in this area. As a result, we have lowered the target audit timeframe to 260 days and are implementing new
internal operating initiatives designed to improve timeliness.
OIG Professional Advice Assists Corporation
All four performance goals in this strategic goal area were met. Two goals related to emerging issues and task forces
and two goals related to vulnerabilities and risks.
Emerging Issues and Task Forces
Emerging Issues – The performance goal was met by OIG providing timely “front-end” assessments of emerging
issues, new systems, significant programs, and related issues. Emerging issues in which the OIG was actively
involved in partnership with the Corporation included: high priority Year 2000 initiatives; system development and appli-
cation enhancement projects, including public key infrastructure and website security; corporate contingency planning;
Division of Supervision program assessments; and various quick response reviews.
Task Forces – The OIG met its performance goal regarding participation in FDIC task forces. OIG staff participated in a
wide array of Corporation group efforts to develop and improve corporate systems; resolve pressing issues in a timely
manner; and improve significant processes, programs, and policies. Cooperative efforts included such areas as: Asset
Loss Reserve strategic planning; investigating bank fraud at open institutions; restitution cases involving fraud; diversity
and equal employment opportunity activities; Alternative Dispute Resolution activities; the Corporation’s Financial
Analysis Project; Internal Control Liaison Council activities, and Customer Service Committee activities.
Advising on Vulnerabilities and Risks
Regulatory and Legislative Proposals and Corporate Policies – The OIG is committed to reviewing and analyzing regula-
tory or legislative proposals and proposed corporate policies and providing advisory comments to management.


                                        Percentage of Policies Reviewed and
                                        Legislative Proposals Analyzed Within
                                                Requested Timeframes
                                                                                     100%
                                        95%              98%    95%           100%
                                                                                     80%
                         Legend
                     •   1998 Target                                                 60%
                     •   1999 Actual
                                                                                     40%

                                                                                     20%

                                                                                      0%
                                              Policies              Legislation




                                                               49
OIG 1999 Performance Report

Corporate Internal Control Process – We also met our goal to review and report timely on the adequacy of the
Corporation’s annual internal control evaluation and reporting process.
Communicating Effectively With the Chairman, the Congress, and Other Stakeholders
We met or substantially met 9 of 10 goals relating to informing clients of the OIG’s role, mission, and activities;
responding to client requests and inquiries; and working with other agencies on cross-cutting issues.
Ensuring Clients Are Informed of OIG Role, Mission, Activities, Issues, and Deficiencies
Client Satisfaction – The goal to increase the client satisfaction rating above the 1998 baseline was met. Surveys of
senior FDIC executives acknowledged a substantial increase in OIG communication efforts during 1999. The surveys
indicated that executive management has a better understanding of the mission, role, and function of the OIG and has
experienced a greater sense of collaboration and partnership with the OIG.




                                                                                                                                          Customer Satisfaction
           OIG Communication Efforts                                                    Level of Understanding of OIG




                                                                                                                                            Rating (scale 1-5)
                                                          Customer Satisfaction

                                                    4                                                                                 5
                                                            Rating (scale 0-4)

                                                    3                                                                                 4
                                                                                                3.01              3.74
                                                    2                                                                                 3

              1.29                  2.88                                                                                              2
                                                    1

                                                    0                                                                                 1
    Legend    • 1998   • 1999                                                        Legend    • 1998    • 1999



Providing Information to Clients – Three goals related to providing the following reports and information to clients were
met: Semiannual Report to the Congress; Annual Performance Plan; Audit Plan; and Weekly Highlights reports.
Responsive to Congressional, Employee, and Public Inquiries and Requests
Hotline Complaints and Freedom of Information Act and Privacy Act (FOIA/PA) Requests – The OIG’s goal regarding its
average referral time for hotline complaints was met. Our goal for timely response to FOIA/PA requests was
substantially met.
                                                                                      Percentage of FOIA/PA Requests
     Hotline Complaints Referral Time                                              Responded to Within 20 Days of Receipt

                                                   25                                                                              100%
                                                        Number of Days




                                                   20                                          100%                                90%
                                                                                                              91%
                                                   15                                                                              80%

                                                   10                                                                              70%

                 15             9                  5                                                                               60%

                                                   0                                                                               50%

Legend • 1999 Goal=15 days or less • 1999 Actual                                    Legend    • 1999 Target        • 1999 Actual




                                                                              50
OIG 1999 Performance Report

Chairman and Congressional Requests – The OIG tracked the resolution of all requests from the Chairman’s Office or
from the Congress. However, the OIG did not meet its goal to acknowledge all such requests within 10 business days.
Four of eight requests were acknowledged within 10 days. Of the remaining four requests, three were both acknowl-
edged and closed within an average of 27 days, and one required 38 days to allow for coordination within the Inspector
General community. Overall, the median response time for the 8 requests was 13 days. We believe our response
times will decrease as we improve our procedures.
                                           Percentage of Chairman and
                                      Congressional Requests Acknowledged
                                            Within 10 Days of Receipt

                                                                                   100%
                                                   100%

                                                                                    75%

                                                                                    50%

                                                                                    25%
                                                                  50%
                                                                                     0%

                                         Legend   • 1999 Target    • 1999 Actual


Access to Reports – Our goal to provide access to audit reports, evaluation reports, and press releases was substan-
tially met. All of our 1999 audit and evaluation reports and press releases were provided to the FDIC Public Information
Center and the OIG Webmaster in a timely manner under our OIG policy. In some cases, however, technical issues
contributed to moderate delays in the availability of some of these documents on the OIG Homepage Web site. We
are working to eliminate these delays.
Working with PCIE and Other Government Agencies to Address Crosscutting Issues
The OIG met both of its performance goals to actively support the activities of the President’s Council on Integrity and
Efficiency (PCIE) and our goal to share information with the FDIC and other agencies. Significantly, the FDIC Inspector
General was appointed PCIE Vice Chair in May 1999 and, in this capacity, provided leadership on a wide variety of inter-
agency activities. Other significant OIG activities in 1999 included: leading a successful joint audit of the Federal
Financial Institutions Examination Council's training activities; providing coordination for the Department of the Treasury
Inspector General in obtaining the information needed from the FDIC on a Material Loss Review of the First National
Bank of Keystone, Keystone, West Virginia; and making presentations at a variety of training conferences attended by
auditing, law enforcement, banking, and regulatory officials.




Quality Relevance
     Impact
                                                            51
OIG 1999 Performance Report

Resource Management Goals

In addition to the strategic goals, the OIG has adopted an operating principle that commits the OIG to the effective
management of resources related to staffing; information technology; professional standards and internal controls; com-
munications; legal advice; and administrative services.
• We conducted a diversity study of all OIG employees, and have issued an organization-wide Action Plan.
• In initiating a project to build the OIG into a learning organization, we used a consultant to perform an internal
  self-assessment to identify issues and are implementing Action Plans to address the issues, including the results of
  internal and external customer surveys.
• OIG employees were surveyed regarding their satisfaction with the OIG’s internal legal services; quality assurance
  program; internal control and risk management program; and computer equipment, software, and systems. The
  feedback gained was used in improving performance in these functions.
• We ensured Y2K compliance for OIG computer equipment, software, and systems. DIRM performed Y2K
  compliance tests of all OIG systems. The OIG did not have any equipment, software, or systems problems caused
  by the century change.
• The OIG surveyed staff views on computer training and took steps to utilize additional training programs to develop
  necessary skills.
• We developed and implemented two major nationwide OIG information systems by year-end.
• We substantially completed an internal quality assurance review of the OIG investigation function.




             Client Satisfaction
Accountability
                                                                                                       Impact
Quality




             Timeliness
                           Results




                                      Relevance

                                                          52
OIG 1999 Performance Report

  Detail Listing of Annual Performance Goal Accomplishment
                      Annual Performance Goal                                         Annual Goal
        (By Strategic Goal Area and Strategic Objective Area)                       Accomplishment

                            Audits, Evaluations, and Investigations Add Value

  Client Satisfaction
  Increase the average customer satisfaction rating [of audit work]
  above the baseline level established by a client survey issued in 1998            Met
  Increase the average customer satisfaction rating [of evaluation work]
  above the baseline level established by a client survey issued in 1998            Met
  Increase the average customer satisfaction rating [of investigation work]
  above the level established by the 1998 client survey                             Met
  Relevance
  60 percent of initiated audits will relate to corporate activities that the OIG   Met
  determines to be areas of high risk or vulnerability, including potential for
  fraud or abuse
  60 percent of initiated evaluations will relate to corporate activities that      Substantially Met
  the OIG determines to be areas of high risk or vulnerability, including
  potential for fraud or abuse
  At least 75 percent of the audits initiated under the OIG's audit plan will       Not Met
  relate directly to FDIC‘s strategic goals or annual performance goals
  70 percent of evaluation projects will relate directly to a corporate
  strategic objective, Chairman’s request, or congressional inquiry                 Met
  40 percent of new cases will be related to criminal restitution and
  civil judgment, bankruptcy, or suspected fraud in open banks                      Met
  Quality
  Develop and test a post-issuance quality scoring methodology and                  Substantially Met
  set future targets
  Conduct operational reviews every 18 months in each regional office
  and correct identified issues within 3 months of the review report                Substantially Met
  Impact/Results
  The OIG and FDIC management agree on appropriate management action
  on 95 percent of audit recommendations within 180 days of report issuance         Met
  The OIG and FDIC management agree on appropriate management action on
  95 percent of evaluation recommendations within 180 days of report issuance       Met
  Analyze baseline data; develop and test a methodology to measure the
  impact of audit and evaluation work; and set future targets                       Not Met
  35 percent of closed cases (discretionary type) will result in criminal,
  civil, or administrative actions                                                  Substantially Met
  Establish baseline data and develop and test a methodology to better
  measure impact of investigative work and set future targets                       Not Met




                                                         53
OIG 1999 Performance Report

                    Annual Performance Goal                                         Annual Goal
      (By Strategic Goal Area and Strategic Objective Area)                       Accomplishment

             Audits, Evaluations, and Investigations Add Value (continued)
Productivity
Issue 79 audit reports                                                            Not Met
Issue 10 evaluation reports                                                       Not Met
Close or convert 65 percent of preliminary cases to
investigations within 90 days of opening                                          Substantially Met
The number of cases completed per investigator will be greater than two           Met
Timeliness
Issue 80 percent of audit reports within established timeframes
(320 calendar days)                                                               Substantially Met
Issue 80 percent of evaluation reports within established timeframes (180 days)   Not Met
70 percent or more of pending cases will be less than 2 years of age              Met
Notify the Corporation 90 percent of the time within 10 working days
of attainment of major investigative milestones                                   Not Met
Issue 90 percent of Reports of Investigation within 30 working days
after all criminal/civil actions have been taken or after Department of
Justice declination                                                               Substantially Met

                           Professional Advice Assists Corporation
Advise on Emerging Issues and Vulnerabilities
Conduct “front-end” assessments of Y2K and other emerging issues,
new systems, or other matters affecting the Corporation, within timeframes
that are responsive to corporate needs                                            Met
Participate in FDIC task forces developing new programs/processes,
if OIG participation is appropriate and can add value                             Met
Review proposed corporate internal policies and respond to the Corporation
and analyze regulatory/legislative proposals within requested timeframes
95 percent of the time                                                            Met
Report within established timeframes on the results of the OIG’s review of
the Corporation’s annual Federal Managers Financial Integrity Act internal
control review process, a process required for the FDIC by the Chief Financial
Officers Act of 1990                                                              Met

                         Communicate Effectively with Clients/Stakeholders

Inspector General Role/Activities; Inquiry Response; Interagency Issues
Provide OIG Semiannual Report and other information to and interact with
the Congress and corporate officials                                              Met
Brief the Congress on Annual Performance Plan and FDIC
management on Annual Audit Plan                                                   Met




                                                          54
OIG 1999 Performance Report

                     Annual Performance Goal                                     Annual Goal
       (By Strategic Goal Area and Strategic Objective Area)                   Accomplishment

             Communicate Effectively with Clients/Stakeholders (continued)

 Produce and communicate weekly highlights report to the Chairman on
 significant OIG activities by the first working day following the week
 being featured                                                                Met
 Increase the average customer satisfaction rating of OIG communication
 efforts above the baseline level established by the 1998 survey               Met
 Refer Hotline complaints within an average of 15 working days of
 receipt to appropriate OIG or corporate officials for review and
 track their resolution                                                        Met
 Respond to Freedom of Information Act/Privacy Act requests within 20 days
 of receipt unless deadline is extended in accordance with law, applicable
 regulation, and OIG policy                                                    Substantially Met
 Acknowledge Chairman’s Office or congressional requests within
 10 business days of receipt and track their resolution                        Not Met
 Provide access to audit reports, evaluation reports, and press releases
 on the OIG Homepage and in the FDIC reading room within 30 days of
 acceptance or in accordance with policy                                       Substantially Met
 Continue to actively participate in and support the activities of the
 President’s Council on Integrity and Efficiency                               Met
 Share information that could assist the FDIC, other OIGs, and
 other government agencies in public forums (i.e., professional conferences,
 round table discussion, training courses, etc.), as requested                 Met




                                                         55
Reporting Terms and Requirements

Reader’s Guide to                                       finding in which, at the time of the    final action is the completion of all
Inspector General Act                                   audit, a cost is not supported by       actions that management has deter-
Reporting Terms                                         adequate documentation; or, a           mined, via the management decision
                                                        finding that the expenditure of         process, are necessary to resolve the
What Happens When Auditors                              funds for the intended purpose is       findings and recommendations
Identify Monetary Benefits?                             unnecessary or unreasonable.            included in an audit report. In the
Our experience has found that the                                                               case of disallowed costs, manage-
                                                        The next step in the process is for
reporting terminology outlined in the                                                           ment will typically evaluate factors
                                                        FDIC management to make a deci-
Inspector General Act of 1978, as                                                               beyond the conditions in the audit
                                                        sion about the questioned costs.
amended, often confuses people. To                                                              report, such as qualitative judge-
                                                        The IG Act describes a “manage-
lessen such confusion and place                                                                 ments of value received or the cost
                                                        ment decision” as the final deci-
these terms in proper context, we                                                               to litigate, and decide whether it is in
                                                        sion issued by management after
present the following discussion:                                                               the Corporation’s best interest to pur-
                                                        evaluation of the finding(s) and rec-
                                                                                                sue recovery of the disallowed costs.
The Inspector General (IG) Act                          ommendation(s) included in an audit
                                                                                                The Corporation is responsible for
defines the terminology and estab-                      report, including actions deemed to
                                                                                                reporting the disposition of the disal-
lishes the reporting requirements for                   be necessary. In the case of ques-
                                                                                                lowed costs, the amounts recovered,
the identification and disposition of                   tioned costs, this management deci-
                                                                                                and amounts not recovered.
questioned costs in audit reports. To                   sion must specifically address the
understand how this process works,                      questioned costs by either disallow-    Except for a few key differences, the
it is helpful to know the key terms                     ing or not disallowing these costs.     process for reports with recommen-
and how they relate to each other.                      A “disallowed cost,” according to       dations that funds be put to better
                                                        the IG Act, is a questioned cost that   use is generally the same as the
The first step in the process is                        management, in a management             process for reports with questioned
when the audit report identifying                       decision, has sustained or agreed       costs. The audit report recommends
questioned costs▼ is issued to                          should not be charged to the gov-       an action that will result in funds to
FDIC management. Auditors                               ernment.                                be used more efficiently rather than
question costs because of an                                                                    identifying amounts that may need to
alleged violation of a provision of a                   Once management has disallowed a
                                                                                                be eventually recovered.
law, regulation, contract, grant,                       cost and, in effect, sustained the
cooperative agreement, or other                         auditor’s questioned costs, the last    Consequently, the management deci-
agreement or document governing                         step in the process takes place         sions and final actions address the
the expenditure of funds. In addi-                      which culminates in the “final          implementation of the recommended
tion, a questioned cost may be a                        action.” As defined in the IG Act,      actions and not the disallowance or
                                                                                                recovery of costs.
▼
 It is important to note that the OIG does not always
expect 100 percent recovery of all costs questioned.




                                                                       56
Index of Reporting Requirements - Inspector General Act of 1978, as amended


                          Reporting Requirement                                                  Page
                          Section 4(a)(2): Review of legislation and regulations                   38

                          Section 5(a)(1): Significant problems, abuses, and deficiencies        10-25

                          Section 5(a)(2): Recommendations with respect to significant
                              problems, abuses, and deficiencies                                 10-25

                          Section 5(a)(3): Recommendations described in previous
                              semiannual reports on which corrective action has not
                              been completed                                                     58-60

                          Section 5(a)(4): Matters referred to prosecutive authorities             26

                          Section 5(a)(5) and 6(b)(2): Summary of instances where
                              requested information was refused                                    65

                          Section 5(a)(6): Listing of audit reports                              61-62

                          Section 5(a)(7): Summary of particularly significant reports           10-25

                          Section 5(a)(8): Statistical table showing the total number of
                              audit reports and the total dollar value of questioned costs         63

                          Section 5(a)(9): Statistical table showing the total number of audit
                              reports and the total dollar value of recommendations that funds
                              be put to better use                                                 64

                          Section 5(a)(10): Audit recommendations more than 6 months
                              old for which no management decision has been made                   65

                          Section 5(a)(11): Significant revised management decisions during
                              the current reporting period                                         65

                          Section 5(a)(12): Significant management decisions with which
                              the OIG disagreed                                                    65




                                          57
Appendix I

                  Appendix I: Statistical
                  Information Required by
                  the Inspector General
                  Act of 1978, as amended

                  The following table shows the cor-
                  rective actions management has
                  agreed to implement but has not
                  completed, along with associated
                  monetary amounts. In some cases,
                  these corrective actions are different
                  from the initial recommendations
                  made in the audit reports. However,
                  the OIG has agreed that the planned
                  actions meet the intent of the initial
                  recommendations. The information
                  in this table is based on information
                  supplied by the FDIC’s Office of
                  Internal Control Management
                  (OICM). These 33 recommendations
                  from 11 reports involve monetary
                  amounts of over $16.1 million.
                  OICM has categorized the status of
                  these recommendations as follows:
                  Management Action in Process: (12
                  recommendations from 7 reports)
                  Management is in the process of
                  implementing the corrective action
                  plan, which may include modifica-
                  tions to policies, procedures, sys-
                  tems or controls; issues involving
                  monetary collection; and settlement
                  negotiations in process.
                  Litigation: (21 recommendations
                  from 4 reports)
                  Each case has been filed and is con-
                  sidered “in litigation.” The Legal
                  Division will be the final determinant
                  for all items so categorized.




             58
Table I.1: Significant Recommendations From Previous Semiannual Reports on
Which Corrective Actions Have Not Been Completed
Report Number,                            Significant       Brief Summary of Planned
Title,                                    Recommendation    Corrective Actions and
and Date                                  Number            Associated Monetary Amounts

Management Action In Process

98-083                                    1                 Require documentation from the trustee and servicers that will
Securitization Credit                                       support the withdrawals from the reserve fund.
Enhancement Reserve Fund
1992-CHF                                  2, 3              Disallow $385,727 in supplemental special servicer fees billed
                                                            early or before any work was performed.
October 2, 1998

98-086                                    4                 Provide a refresher course to field examiners on the use of the
Implementation of the Risk-                                 Examiner Laptop Visual Information System software and provide
Focused Examination Process                                 clarification on issues that have emerged since the modules
                                                            have been instituted.
November 5, 1998

98-090                                    2, 4              Quantify the amount of overstated realized losses, unrecorded
Credit Enhancement Reserve Fund                             proceeds, corporate advances and refunds resulting from
for Securitization Transactions 1993-03                     accounting errors and request reimbursement from
                                                            NationsBanc, as successor to Boatmen.
November 24, 1998
                                          10                Perform or contract for on-site reviews of the servicer’s support-
                                                            ing documentation of the realized losses for the single-family
                                                            residential loan securitization program.

EVAL 99-004                               7                 Reassess FDIC headquarters color copying requirements and
FDIC Headquarters Copier                                    determine whether FDIC could more economically meet those
Administration Program                                      needs by consolidating copiers or installing more appropriate
                                                            color copy machines.
June 15, 1999

99-027                                    1                 Disallow $331,672 for losses that were incurred and negotiate
Limited Scope Audit of Credit                               a settlement agreement to obtain restitution for the losses
Enhancement Reserve Funds for                               related to Chapter 11 bankruptcy proceedings.
Securitization Transaction
1991-16 and 1992-05
 Table I.1




July 6, 1999

99-028                                    3                 Ensure that the system being developed to replace the
Personnel Action Processing                                 Personnel Action Request System incorporates the capability to
Controls and Security                                       preserve a permanent image or record of the original request
                                                            for personnel action and provides an audit trail to changes and
July 29, 1999                                               additions made to the request.✦

EVAL 99-007                               1                 Take actions to more closely align the types and placement of
FDIC Regional Copier Program                                equipment in the Dallas Regional Office’s and San Francisco
                                                            Regional Office’s copier programs with each region’s
September 30, 1999                                          copying demands.

                                          2                 Analyze the available convenience copier contract vehicles and
                                                            scenarios and select the ones that provide the best value
                                                            for the Dallas Regional Office and San Francisco Regional
                                                            Office.
                                                            ✦
                                                             Implementation scheduled along with the completion of the Corporate Human
                                                            Resources Information System.
                                                       59
Report Number,                        Significant       Brief Summary of Planned
Title,                                Recommendation    Corrective Actions and
and Date                              Number            Associated Monetary Amounts

Litigation

95-032                                5                 Recover $5,259,285 from the association for noncompliance
Local America Bank, F.S.B.,                             with the tax benefits provisions of the assistance agreement.
Assistance Agreement

March 24, 1995

96-014                                1, 4-16           Recover $4,526,389 of assistance paid to Superior Bank.
Superior Bank, F.S.B., Assistance
Agreement, Case Number C-389c

February 16, 1996

97-080                                8                 Disallow the improperly paid late fees and special assessments
FDIC Property Tax Reassessments                         totaling $4,385,089 and initiate action to prevent future payments
and Refunds, Western Service Center                     of such amounts.

July 17, 1997

98-026                                2, 3, 4, 6        Recover $1,220,470 of assistance paid to Superior Bank.
Assistance Agreement Audit of
Superior Bank, Case Number C-389c

March 9, 1998
                                      11                Compute the effect of understated Special Reserve Account
                                                        for Payments in Lieu of Taxes and remit any amounts due to
 Table I.1




                                                        the FDIC.




                                                   60
Table I.2: Audit Reports Issued by Subject Area
Audit Report                                                            Questioned Costs
Number                                                                                          Funds Put to
and Date              Title                                     Total             Unsupported     Better Use

Supervision and Consumer Affairs

00-002               Management Review of Division of
February 23, 2000    Supervision Tracking Systems

Award, Administration, and Oversight of Contracts and Agreements

EVAL-99-009          MCI Voice and Video Contract Price                                           $2,181,984
December 20, 2000    Warranty

00-010               Mortgage Project Group’s Billings          $58,254
March 28, 2000

Asset Servicing and Liquidation

99-044               Loan Processing and Disposition
November 24, 1999    Procedures, Southwest Bank, Jennings,
                     Louisiana

D99-045              Delegations of Authority for Asset
November 29, 1999    Dispositions

99-046               RTC Mortgage Trust 1994 S-6
December 16. 1999

00-001               Internal Controls over Receivership
January 12, 2000     Employee Benefit Plans
Table I.2




00-003               Northeast Service Center’s Subsidiaries
March 13, 2000       Inventory

00-004               Industrial Revenue Bond Partnership
March 3, 2000        TEJV-1, L.P.

00-005               RTC Mortgage Trust 1993-N3                 $349,684          $13,068
March 17, 2000

00-006               RTC Mortgage Trust 1994-N1                 $366,555          $931
March 17, 2000

00-007               RTC Mortgage Trust 1994-N2                 $417,294
March 17, 2000

00-008               Income, Expenses, and Distributions        $151,012          $102,212
March 20, 2000       of the Overland National Fund Limited
                     Partnership, Monrovia, CA                                                            al




                                                           61
Audit Report                                                                Questioned Costs
Number                                                                                                   Funds Put to
and Date                Title                                       Total             Unsupported          Better Use

Financial Accountability and Internal Controls

00-014                  Accounts Payable Operations in
March 31, 2000          Washington, D.C.

Financial and Management Information Systems

99-043                  DOA Actions Regarding Internet Banking
October 27, 1999

99-047                  Data Integrity Controls for Selected
December 21, 1999       Division of Resolutions and Receiverships
                        (DRR) Automated Systems

00-011                  Acquisition of Software and Services
March 30, 2000          to Support the Corporate Human
                        Resources Information System

00-012                  FDIC’s Year 2000 Efforts
March 24, 2000

00-013                  FDIC’s Strategic Planning for Information
March 31, 2000          Technology Resources

Corporate Activities and Administration

00-009                  Semiannual Report of FDIC Board
Table I.2




March 23, 2000          Members’ Travel Voucher Reviews–
                        September 1999 through
                        February 2000

Totals for the Period                                               $1,342,799        $116,211      $2,181,984




                                                            62
Table I.3: Audit Reports Issued with Questioned Costs
                                                                                                Questioned Costs
                                                                         Number
                                                                                           Total              Unsupported



A.   For which no management decision has been
     made by the commencement of the reporting period.                   0                 0                  0

B.   Which were issued during the reporting period.                      5                 $1,342,799         $116,211

Subtotals of A and B                                                     5                 $1,342,799         $116,211

C.   For which a management decision was made
     during the reporting period.                                        5                 $1,342,799         $116,211

     (i)   dollar value of disallowed costs.                             4                 $577,512           $116,211
                                                                         ▼
     (ii) dollar value of costs not disallowed.                         4                  $765,287           0

D.   For which no management decision has been
     made by the end of the reporting period.                            0                 0                  0

     Reports for which no management decision was made
     within 6 months of issuance.                                        0                 0                  0



     ▼
      Three of the four reports included on the line for costs not disallowed are also included in the line for costs disallowed,
     since management did not agree with some of the questioned costs.

     Note: In addition, the FDIC has recovered $26,568 as a result of legal fee bill audit work that did not result in a formally
Table I.3




           issued report.




                                                             63
Table I.4: Audit Reports Issued with Recommendations for Better Use of Funds
                                                     Number      Dollar Value



A.         For which no management decision has been made by the
           commencement of the reporting period.                                               0   0
                                                                                                            ▼
B.         Which were issued during the reporting period.                                      1   $2,181,984

Subtotals of A and B                                                                           1   $2,181,984

C.         For which a management decision was made during
           the reporting period.                                                               1   $2,181,984

           (i)   dollar value of recommendations that were agreed to                           1   $2,181,984
                 by management

                 - based on proposed management action.                                        1   $2,181,984

                 - based on proposed legislative action.                                       0   0

           (ii) dollar value of recommendations that were not
                agreed to by management.                                                       0   0

D.         For which no management decision has been made by the end of the                    0   0
           reporting period.

           Reports for which no management decision was made                                   0   0
           within 6 months of issuance.


     ▼
Table I.4




         Evaluation report included in this table to reflect funds put to better use amount.




                                                                    64
                              Table I.5
                              Status of OIG Recommendations Without
                              Management Decisions

                              During this reporting period, there were no recommendations without
                              management decisions.
Tables I.5, I.6, I.7, & I.8

                              Table I.6
                              Significant Revised Management Decisions

                              During this reporting period, there were no significant revised management
                              decisions.




                              Table I.7
                              Significant Management Decisions with Which the
                              OIG Disagreed

                              During this reporting period, there were no significant management decisions
                              with which the OIG disagreed.




                              Table I.8
                              Instances Where Information Was Refused

                              During this reporting period, there were no instances where information was
                              refused.




                                                                    65
Appendix II
Appendix II:
Reports Issued by the Office of Congressional Relations and Evaluations

                 Report Number
                 and Date      Title



                 EVAL-99-009    MCI Voice and Video Contract - Price Warranty

                 12/20/99

                 EVAL-00-001    An Assessment of the Corporation’s Efforts to Enhance Energy Efficiency and
                                Reduce Consumption of Natural Resources at Its Headquarters Facilities
                 1/25/00

                 EVAL-00-002    The Division of Compliance and Consumer Affairs’ Reporting of Examinations and
                                Activities in FDIC Quarterly Performance Reports
                 2/24/00

                 EVAL-00-003    Internal Controls Over Confidential Information Collected and Generated During the
                                Application Process
                 3/24/00
Appendix II




                                                 66
Abbreviations

                ACSB    Acquisition and Corporate Services Branch

                CHRIS   Corporate Human Resources Information System

                CRA     Community Reinvestment Act

                DCA     Division of Compliance and Consumer Affairs

                DIRM    Division of Information Resources Management

                DOA     Division of Administration

                DOS     Division of Supervision

                DRR     Division of Resolutions and Receiverships

                ECIE    Executive Council on Integrity and Efficiency
Abbreviations


                FBI     Federal Bureau of Investigation

                FDIC    Federal Deposit Insurance Corporation

                FOIA    Freedom of Information Act

                FRB     Board of Governors of the Federal Reserve System

                GAO     U.S. General Accounting Office

                GSA     General Services Administration

                IG      Inspector General

                IRS     Internal Revenue Service

                IT      Information Technology

                MCI     MCI WorldCom

                NESC    Northeast Service Center

                NPS     National Processing System

                OCC     Office of the Comptroller of the Currency

                ODEO    Office of Diversity and Economic Opportunity

                OI      Office of Investigations

                OICM    Office of Internal Control Management

                OIG     Office of Inspector General

                OTS     Office of Thrift Supervision

                PA      Privacy Act

                PCIE    President’s Council on Integrity and Efficiency

                PTL     Pacific Thrift and Loan Company

                RTC     Resolution Trust Corporation




                                            67
Congratulations!
Congratulations to co-authors Jeanette M. Franzel (U.S. General
Accounting Office) and Ross E. Simms (FDIC OIG) on the publica-
tion of their article “The Buck Stops Here: A Unique Partnership in
Federal Financial Auditing” in The Journal of Public Inquiry, a publi-
cation of the Inspectors General of the United States, Fall/Winter
1999 issue. Their article chronicles a collective effort to conduct the
financial statement audit for their common client, the FDIC. This
alliance has become an innovative model for forming partnerships in
the federal government.




Happy Retirement
The OIG bids a fond farewell to James R. Renick, who retired from
the FDIC after more than 23 years of service. Jim was involved in
almost every aspect of audit and investigative activities at the FDIC.
He joined the Corporation in 1976 as Assistant Director of the Office
                                      of Corporate Audits and
                                      Investigations, which in 1989
                                      became the Office of
                                      Inspector General. At that
                                      time, he became the Deputy
                                      Inspector General, a position
                                      he held until then-Acting
                                      Chairman Andrew Hove
                                      selected him as the FDIC‘s
                                      Inspector General upon the
                                      retirement of Mr. Robert
                                      Hoffman. When the Congress
                                      designated the position of
                                      Inspector General at the FDIC
a presidential appointment, Jim became the Principal Deputy
Inspector General but served as Acting Inspector General for
2 years until the current Inspector General, Gaston L. Gianni, Jr.,
was named Inspector General in April 1996. Jim served as Principal
Deputy Inspector General since that time.

Family, friends, and colleagues
from throughout the FDIC
celebrated Jim‘s retirement
on March 30, 2000. The OIG
thanks and congratulates him
for his distinguished federal
                                                                          Mr. and Mrs. Renick with
career.                                                                   FDIC Chairman Tanoue.
Design by FDIC/DOA/ACSB/Design & Printing
